<html>
<title> - THE STATE OF U.S. TRAVEL AND TOURISM: GOVERNMENT EFFORTS TO ATTRACT 100 MILLION VISITORS ANNUALLY</title>
<body><pre>[Senate Hearing 113-718]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-718
 
                 THE STATE OF U.S. TRAVEL AND TOURISM:
               GOVERNMENT EFFORTS TO ATTRACT 100 MILLION 
                              VISITORS ANNUALLY

=======================================================================

                                HEARING

                               BEFORE THE

        SUBCOMMITTEE ON TOURISM, COMPETITIVENESS, AND INNOVATION

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 26, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                             U.S. GOVERNMENT PUBLISHING OFFICE
96-039 PDF                       WASHINGTON : 2015                             
      
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afc8dfc0efccdadcdbc7cac3df81ccc0c281">[email&#160;protected]</a>  
      
      
      
      
      
      
      
      
      SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

        SUBCOMMITTEE ON TOURISM, COMPETITIVENESS, AND INNOVATION

BRIAN SCHATZ, Hawaii, Chairman       TIM SCOTT, South Carolina, Ranking 
MARK PRYOR, Arkansas                     Member
AMY KLOBUCHAR, Minnesota             ROY BLUNT, Missouri
MARK BEGICH, Alaska                  DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
JOHN E. WALSH, Montana               RON JOHNSON, Wisconsin
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 26, 2014....................................     1
Statement of Senator Schatz......................................     1
Statement of Senator Blunt.......................................     2
Statement of Senator Scott.......................................    20
Statement of Senator Nelson......................................    25
Statement of Senator Heller......................................    27
Statement of Senator Rubio.......................................    29
Statement of Senator Klobuchar...................................    33

                               Witnesses

Kenneth E. Hyatt, Deputy Under Secretary for International Trade, 
  International Trade Administration, U.S. Department of Commerce     3
    Prepared statement...........................................     4
Ambassador Michele Thoren Bond, Acting Assistant Secretary for 
  Consular Affairs, U.S. Department of State.....................     7
    Prepared statement...........................................     9
Michael Stroud, Acting Assistant Secretary, Private Sector 
  Office, Office of Policy, U.S. Department of Homeland Security.    12
    Joint testimony of Michael Stroud and John P. Wagner.........    13
John P. Wagner, Acting Assistant Commissioner, Office of Field 
  Operations, U.S. Customs and Border Protection, U.S. Department 
  of Homeland Security...........................................    18

                                Appendix

Letter dated June 26, 2014 to Hon. Brian Schatz and Hon. Tim 
  Scott from Organizations of the American Hotel & Lodging 
  Association....................................................    41
Colleen M. Kelley, National President, National Treasury 
  Employees Union, prepared statement............................    42
Response to written questions submitted to Kenneth E. Hyatt by:
    Hon. Bill Nelson.............................................    44
    Hon. Brian Schatz............................................    44
Response to written questions submitted to Michele T. Bond by:
    Hon. Bill Nelson.............................................    46
    Hon. Richard Blumenthal......................................    46
    Hon. Brian Schatz............................................    47
Response to written questions submitted to Michael Stroud by:
    Hon. Bill Nelson.............................................    48
    Hon. Richard Blumenthal......................................    48
    Hon. Brian Schatz............................................    50
Response to written questions submitted by Hon. Brian Schatz to 
  John P. Wagner.................................................    53


                 THE STATE OF U.S. TRAVEL AND TOURISM:.
                   GOVERNMENT EFFORTS TO ATTRACT 100.
                       MILLION VISITORS ANNUALLY

                              ----------                              


                        THURSDAY, JUNE 26, 2014

                               U.S. Senate,
     Subcommittee on Tourism, Competitiveness, and 
                                        Innovation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:34 a.m., in 
room SR-253, Russell Senate Office Building, Hon. Brian Schatz, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Good morning. We call this hearing to 
order.
    Today's hearing will examine the Federal Government's 
efforts to reach our Nation's goal of attracting 100 million 
international visitors annually by the year 2021. Last month, 
we heard from key industry stakeholders on how we can achieve 
this goal. It was clear that there were areas where the Federal 
Government could do better.
    Today, I would like to focus on three ways to increase 
tourism. The first is how the Federal Government engages in 
travel and tourism export promotion. Hawaii knows the 
importance of targeting international markets to grow this 
sector. Having the right data about international markets has 
been key to its success.
    Looking at states like Hawaii as examples, the Federal 
Government should partner with industry to make sure the right 
data are collected. This will make us informed--this will help 
us to make informed decisions about which markets to target at 
the national level. We need to shift our approach from meeting 
existing demand to driving demand, and in doing so, we must 
ensure Federal resources are prepared to meet it.
    The second issue is improving accessibility, a fundamental 
piece of travel promotion. We can do all the tourism promotion 
we want, but if we are not ready to receive travelers, our 
efforts are for naught.
    A key component is the arrivals process. Customs and Border 
Protection has initiated several programs to reduce wait times 
at our ports of entry, but the United States still faces 
challenges with long wait times. This makes travelers less 
likely to return.
    The U.S. has also experienced challenges meeting demands--
demand for visas, especially in emerging economies, such as 
China and Brazil. The State Department has made progress in 
reducing visa interview wait times. As demand rises, we need to 
further streamline processes and leverage new technologies to 
make sure those who want to travel here can do so without 
unnecessary delay.
    To address accessibility challenges, Senator Scott and I 
have introduced the INVITE Act. This bill would improve the 
arrivals process by expanding the Global Entry program and 
strengthening the Model Ports program. The INVITE Act would 
direct CBP and the State Department to look at ways to 
coordinate the passport, visa, and Global Entry application 
processes. This would help to streamline application processes 
and encourage more travelers to apply for Global Entry.
    Our bill would also build upon the current Model Ports 
program and require CBP to develop metrics to measure the 
program's performance. And it would further public-private 
partnerships by establishing a matching grant program for 
eligible U.S. airports to create more user-friendly ports. I 
look forward to any comments the witnesses may have today 
related to this bill.
    The third issue is how we provide a quality visitor 
experience to attract new visitors and encourage repeat 
visitors. The Federal Government has a role to play in reducing 
barriers to a quality experience. We need to shift our mindset 
to become more customer focused in how we deliver Federal 
services. This means rethinking how the Federal Government 
operates.
    It also means investing in today's work force. We need to 
train employees at all levels to be forward leaning, to deliver 
better services and create a positive experience for our 
visitors.
    As we address these issues, I look forward to hearing from 
the witnesses on how they are partnering with private sector 
stakeholders to grow our travel and tourism industry. Thank you 
all for being here today.
    If Senator Blunt has an opening statement, we would be 
happy to hear from him.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Chairman, I am just pleased you are holding 
this hearing. And you understand these travel and tourism 
issues, as well as the importance of encouraging visitors and 
dealing with visitors in appropriate ways so that they want to 
come back, as well as the things we need to do to secure our 
entry and understand our exit system in the country.
    And I thank you for conducting this hearing.
    Senator Schatz. Thank you, Senator Blunt, and thank you for 
your leadership on these issues over the years on a bipartisan 
basis.
    Senator Heller, do you have any remarks before we get 
going?
    Senator Heller. I will wait for questioning.
    Senator Schatz. Thank you. And Senator Nelson is going to 
wait for questioning as well.
    Senator Scott is on his way, and when he comes, he will be 
offering an opening statement.
    I would like to introduce the witnesses today. We have Ken 
Hyatt, Deputy Under Secretary for International Trade at the 
Department of Commerce; Michele Bond, Acting Assistant 
Secretary for the Bureau of Consular Affairs at the Department 
of State; Michael Stroud, Acting Assistant Secretary for the 
Private Sector Office at the Department of Homeland Security; 
and John Wagner, Acting Assistant Commissioner for the Office 
of Field Operations at the United States Customs and Border 
Protection.
    Before we start, I want you to know that your written 
statements will be part of the record, and I would also like to 
remind you to please limit your oral remarks to 5 minutes.
    Mr. Hyatt, please proceed with your statement.

          STATEMENT OF KENNETH E. HYATT, DEPUTY UNDER

        SECRETARY FOR INTERNATIONAL TRADE, INTERNATIONAL

       TRADE ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Hyatt. Chairman Schatz, Ranking Member Scott, and 
members of the Committee, thank you for the opportunity to 
speak about the Department of Commerce's role in supporting and 
coordinating the U.S. Government's National Travel and Tourism 
Strategy.
    I first want to thank my colleagues here today for their 
leadership, partnership, and hard work in moving this strategy 
forward. It is truly an administration-wide effort.
    The travel and tourism industry now accounts for more than 
26 percent of America's services exports and 8 percent of 
exports overall. Travel and tourism is our largest services 
export. Altogether, the trade surplus in this industry is 
bigger than ever, at $57 billion in 2013. That is 20 percent 
higher than the $47.5 billion surplus in 2012 and the largest 
on record.
    We are pleased to report that a record 70 million 
international visitors traveled to the United States in 2013, a 
5 percent increase over 2012, and spent a record $180.7 
billion. These numbers are important. They represent export 
growth in the United States and support American jobs. 
International travel and tourism supports 1.2 million jobs in 
the United States, and more than 7.8 million Americans work in 
the U.S. travel and tourism sector overall.
    Contributing to our growth in travel and tourism is our 
National Travel and Tourism Strategy. The strategy set an 
ambitious goal of attracting 100 million international visitors 
annually to the United States by the end of 2021. The Tourism 
Policy Council, a Cabinet-level group led by Secretary 
Pritzker, is coordinating the implementation of the strategy in 
cooperation with the private sector to help facilitate 
legitimate travel to the United States.
    However, even as demand has grown, challenges remain. Some 
travelers are experiencing bottlenecks at the borders, demand 
for visas remain high, there is increased global competition 
for international travelers, and the increased number of 
travelers are putting pressure on our infrastructure. Clearly, 
we have more work to do.
    The perspectives of the private sector have been 
incorporated into the five areas where we, the U.S. Government, 
are focusing our efforts moving forward.
    First, we are working to continue improving visa 
processing.
    Second, we want to improve the experience of travelers at 
U.S. ports of entry. To that end, on May 22, the President 
announced an effort to develop a national goal to enhance the 
entry process for international travelers to the United States, 
along with the development of specific action plans at the 
Nation's busiest airports. President Obama directed the 
Secretaries of Homeland Security and Commerce to lead this 
important effort.
    Third, we will promote the United States by supporting 
Brand USA, the public-private partnership established by the 
Travel Promotion Act of 2009.
    Fourth, we want to make more data about Federal tourist 
sites more accessible to industry for marketing use.
    And finally, we will explore ways to expand the statistical 
information we collect and publish on international travelers 
to the United States.
    While the Federal Government is coordinating across the 
agencies, it is important to highlight what the private 
sector's role is in implementing the strategy. The Travel 
Promotion Act established the Corporation for Travel Promotion, 
now doing business as Brand USA, with the mission of 
spearheading the Nation's first international marketing effort 
to promote the United States as the premier global travel 
destination.
    As of September 2013, Brand USA had recruited more than 400 
partners who are participating in more than 100 programs around 
the world. These partners contributed more than $122 million in 
value in Fiscal Year 2013. They are being utilized by Brand USA 
to create and execute an international marketing campaign. We 
will continue to work with Brand USA to ensure that the U.S. 
remains the top global tourist destination.
    With the national strategy, I am pleased to report that we 
are doing better than ever before and will continue to improve 
in interagency coordination and our engagement with industry. 
It is truly only by working hand-in-hand across the public and 
private sectors that we will achieve the 100 million visitor 
goal set forth in the strategy.
    Thank you, and I welcome questions.
    [The prepared statement of Mr. Hyatt follows:]

Prepared Statement of Kenneth E. Hyatt, Deputy Secretary, International 
           Trade Administration, U.S. Department of Commerce
Introduction
    Chairman Schatz, Ranking Member Scott, and members of the 
Committee, thank you for the opportunity to speak about the Department 
of Commerce's role in supporting and coordinating the U.S. Government's 
National Travel and Tourism Strategy and how we are working across the 
Federal Government and the private sector to implement this strategy.
    Let me start with the fundamentals: why travel and tourism is 
important to the U.S. economy, to the Administration and to the 
President.
Importance of Travel and Tourism to the U.S. Economy
    The Department's NEI/NEXT is a customer service-driven strategy 
with improved information resources that will help American businesses 
capitalize on existing and new opportunities. Travel and tourism is a 
priority sector within this strategy. We are pleased to report that a 
record 70 million international visitors traveled to the United States 
in 2013, which is a five percent increase over 2012. Those 70 million 
international visitors spent a record-shattering $180.7 billion in 
2013. That is nearly $1.3 billion more spent each month by 
international visitors on American goods and services than in 2012.
    To break these numbers down just a little more:

  <bullet> Passenger fare receipts were up nearly 5 percent, and

  <bullet> Travel receipts for things like food, lodging, recreation, 
        gifts and entertainment were up nearly 11 percent over 2012.

    The travel and tourism industry now accounts for more than 26 
percent of all of America's services exports and nearly 8 percent of 
exports overall.
    Altogether, the trade surplus in this industry is bigger than ever 
at $57 billion dollars in 2013. That is 20 percent higher than the 
$47.5 billion travel trade surplus in 2012 and the largest U.S. travel 
trade surplus on record.
    These numbers are important--they represent tremendous exports for 
the United States and they also support jobs as well: 1.2 million jobs 
in the United States are supported by international travel and tourism. 
Overall, 7.8 million Americans work in travel and tourism jobs in the 
United States.
2012 Executive Order and Progress-to-Date
    One of the factors driving the growth in travel and tourism was the 
President's Executive Order--Establishing Visa and Foreign Visitor 
Processing Goals and the Task Force on Travel and Competitiveness--
issued in 2012. This was a seminal moment for Federal Government 
support for this industry. The Executive Order has already led to a 
number of concrete accomplishments:

  <bullet> Thanks to additional positions in consular affairs and 
        expanded visa processing facilities around the world, 94 
        percent of non-immigrant visa applicants worldwide are 
        interviewed within three weeks.

  <bullet> Wait times for non-immigrant visas in key markets like 
        Brazil, India, China, and Mexico are all currently less than 10 
        days. In China, wait times have been under five days for the 
        past two years.

  <bullet> More than two million people now have access to Trusted 
        Traveler Programs, up 60 percent from December 2012; and

  <bullet> More than 53 million people received expedited screening as 
        of the end of 2013.

    In addition, the Executive Order led to the development of a 
National Travel and Tourism Strategy, which the Departments of Commerce 
and Interior launched in 2012. The Strategy set an ambitious goal of 
attracting 100 million international visitors to the United States by 
2021.
    The National Travel and Tourism Strategy identified five key areas 
critical to its success:

  1.  Promoting the United States as a destination, as never before;

  2.  Enabling and enhancing travel and tourism to and within the 
        United States;

  3.  Providing world class customer service and visitor experiences;

  4.  Coordinating across government; and

  5.  Conducting research and measuring results.

    The Tourism Policy Council (TPC), a cabinet level group led by 
Secretary Pritzker, is coordinating the implementation of the Strategy. 
It is being implemented by the Federal Government, in cooperation with 
the private sector, to help facilitate legitimate travel to the United 
States and bring us closer to our 2021 goal. Fortunately, over the past 
several years, we have been helped by increasing international demand 
for overseas travel.
    However, as demand has grown, new challenges have arisen. Not only 
are some travelers experiencing bottlenecks at the borders, long wait 
times, and customer service challenges at our ports of entry, the 
increased demand is also putting pressure on our infrastructure. 
Clearly, we have more work to do.
    To that end, on May 22, 2014, the President announced a new 
initiative to establish a national goal and develop airport-specific 
action plans to enhance the entry process for international travelers 
to the United States. President Obama directed the Secretaries of 
Commerce and Homeland Security to spearhead this task in coordination 
with the TPC. The purpose of this goal and attendant action plans is to 
maximize the economic contribution of travel and tourism for business, 
leisure, academic, medical and other lawful purposes by improving the 
experience of international travelers coming to the United States, in 
particular their experience with the admissions process and customs 
processing at airports in the United States. You'll hear more about 
that today from my colleague from the Department of Homeland Security.
    This new initiative complements what the U.S. Travel and Tourism 
Advisory Board (TTAB), the private sector advisory body that provides 
advice and counsel to Secretary Pritzker, has very clearly articulated 
as the travel and tourism industry's priorities for the Federal 
Government for the next few years:

  <bullet> Continue to make progress on travel facilitation, including 
        sustaining the progress on visa issuance time frames and 
        continuing to improve the entry experience.

  <bullet> Do more to support Brand USA, including the reauthorization 
        of its Federal funding.

  <bullet> Increase investment in infrastructure, including surface 
        transportation, airports, and Next Gen air traffic control.

  <bullet> Explore additional public-private partnerships so that 
        industry and government can work together to make progress on 
        mutual priorities.
Next Steps in the Strategy
    The TTAB recommendations are clearly reflected in the five areas 
where the agencies of the TPC agreed to focus their efforts during the 
President's second term:

  <bullet> First, as my colleague from State will further explain, we 
        will continue to focus on improving travel facilitation through 
        efforts to expand membership of eligible countries in the Visa 
        Waiver Program and other initiatives to keep up with demand for 
        visas.

    <ctr-circle> Chile was recently designated for participation in the 
            Visa Waiver Program.

    <ctr-circle> The State Department made permanent the non-immigrant 
            visa interview waiver program, which speeds up the process 
            for certain visa renewals.

  <bullet> Second, we will improve the experience of travelers at U.S. 
        ports of entry. For example, Secretary of Commerce Penny 
        Pritzker and DHS Secretary Jeh Johnson have agreed to expand 
        efforts and work collaboratively between the two departments.

  <bullet> Third, increase support for and integration with Brand USA. 
        The Department of Commerce will partner with Brand USA on 
        promotions and coordinate Commerce/Brand USA activities in key 
        markets, focusing on parts of the world where we can have the 
        most impact.

  <bullet> Fourth, the Departments of Interior and Agriculture are 
        working to free up data about Federal tourist sites (such as 
        national parks), which will allow entrepreneurs and tour 
        operators to create even better itineraries and products, such 
        as apps, and provide the travel trade with new and different 
        ways to get their customers thinking about the United States as 
        a great vacation destination.

  <bullet> Finally, explore ways to improve and expand the statistical 
        information we collect and publish on international travelers 
        to the United States.

    The White House, Commerce, State, Homeland Security, Interior, and 
other agencies of the TPC continue to drive this as a national priority 
and continue to work together to achieve results. At the same time, it 
is important to look at what is being done at the private sector level.
Brand USA
    Brand USA was created as the Corporation for Travel Promotion in 
2010 when President Obama signed into law the Travel Promotion Act of 
2009 (TPA). Now doing business as Brand USA, the corporation's mission 
is to spearhead the Nation's first international marketing effort to 
promote the United States as a premier travel destination and 
communicate U.S. entry policies and procedures. The relationship 
between the Department of Commerce and Brand USA is also set forth in 
the TPA. It is working well--and it will continue to evolve.
    As of September 2013, Brand USA had recruited more than 400 private 
sector partners who were participating in more than 100 programs in key 
markets around the globe. These partners contributed more than $122 
million in cash and in-kind goods and services that is being utilized 
by Brand USA to realize their mission and to encourage international 
travel from all of our key markets.
    In 2013, Brand USA's retention/renewal rate with their 2012 
partners was more than 95 percent. This speaks strongly to Brand USA's 
ability to deliver on their brand promise and to create a strong 
international marketing campaign. Their ``Discover this land, like 
never before'' campaign is one in which large and small businesses can 
participate and will help the United States stay competitive in the 
global arena. They are implementing other programs around the globe in 
partnership with the Federal Government, such as their culinary-themed 
promotion campaign being launched with the State Department. For only 
the second time, five Federal agencies--Commerce, Interior, State, 
Agriculture and DHS--came together in partnership to present a unified 
``federal row'' at the travel and tourism industry's largest U.S.-based 
trade show, IPW, during which more than $4.5 billion in future travel 
to the United States was written. With Brand USA's support, ``federal 
row'' was incorporated into the show floor as part of Brand USA's 
pavilion. This key location provided stronger, more visible presence of 
the Federal agencies directly with IPW's international buyer and media 
delegates largely as a result of the traffic to Brand USA's pavilion. 
In addition, Brand USA staff cross-promoted the Federal partners to 
their clients, making introductions as appropriate. As a result, 
international delegates were introduced to new Federal travel and 
tourism products and pre-developed tour itineraries they can offer 
their clients--the international visitors we want to welcome to the 
United States.
    The work of Brand USA is critical to our ability to achieve the 
President's ambition goal of attracting 100 million international 
travelers by 2021. Federal funding for Brand USA, as provided by the 
Travel Promotion Act, expires at the end of FY 2015. The Administration 
encourages Congress to reauthorize this important program.
Conclusion
    The National Travel and Tourism Strategy has been remarkably 
effective, with two years of record numbers in both international 
arrivals and the revenues they generate. The Strategy has provided a 
focus and a roadmap for agencies to work together and with the private 
sector to create a policy framework to foster growth in this sector. 
Moving forward, agencies will continue to work together, and with the 
private sector, to improve the entry experience for visitors and 
support international visitation by better coordinating activities in 
the markets that generate international visitors to the United States. 
It is truly only by working hand-in-hand across the private sector and 
across government--local, state and federal--that we will achieve the 
goal set forth in the National Strategy--welcoming 100 million 
international visitors by 2021 who will spend $250 billion annually.
    Thank you for the opportunity to speak before you today on this 
dynamic industry and I welcome any questions.

    Senator Schatz. Thank you very much.
    Ambassador Bond?

          STATEMENT OF AMBASSADOR MICHELE THOREN BOND,

        ACTING ASSISTANT SECRETARY FOR CONSULAR AFFAIRS,

                    U.S. DEPARTMENT OF STATE

    Ambassador Bond. Good morning, Chairman Schatz, Ranking 
Member Scott, and distinguished members of the Subcommittee.
    My testimony this morning will focus on what the Department 
of State has accomplished in support of the President's 
National Travel and Tourism Strategy, and I am pleased to 
report that we have met the President's directive and have been 
surpassing the benchmark he set since 2012. We do this while 
continuing to protect our borders and the safety of our 
citizens.
    The numbers speak for themselves. In Fiscal Year 2013, 
consular officers issued more than 9.2 million U.S. visas, an 
increase of 42 percent over the past 3 years. We are on pace to 
surpass that number this fiscal year.
    The largest growth in travel comes from the world's 
emerging economies, where we have seen demand for U.S. visas 
increase at a dramatic pace. In fact, nearly half of worldwide 
visa issuances come from just four countries: Mexico, China, 
Brazil and India.
    In the first half of this fiscal year, we processed more 
than three-quarters of a million visas in China, a 28 percent 
increase, and more than half a million visas in Brazil, a 17 
percent increase over the previous fiscal year. Visa issuances 
in Brazil have doubled since 2009 and almost quadrupled since 
2006.
    Since August 2012, Consular Affairs has met the goal set by 
the President to interview 80 percent of applicants worldwide 
within 3 weeks of submitting their applications. In fact, so 
far this year, we have interviewed 71 percent of applicants 
within a week and 95 percent of applicants within 3 weeks.
    At our busiest overseas post, Sao Paulo, Brazil, where we 
issued over half a million nonimmigrant visas last Fiscal Year, 
appointment wait times are consistently less than 1 week, and 
the average visitor to the Consular Section spends 20 minutes 
in the building.
    Let me briefly highlight two key strategic improvements we 
have made to our visa processing model. First, we increased 
staffing. We now have 167 consular officers in Mission China 
and have more than doubled our consular staffing in Mission 
Brazil since 2011. Fifty-nine new adjudicators have been hired 
and deployed worldwide through a limited non-career appointment 
program that hires visa adjudicators who already speak Chinese, 
Portuguese, or Spanish.
    Second, we expanded facilities to handle increased numbers 
of applicants, and we are still growing. We are adding nearly 
60 windows across our China posts. We are moving into a new 
facility in Monterrey, Mexico. In Belo Horizonte and Porto 
Alegre, Brazil, and in Wuhan, China, we are opening entirely 
new consulates in coming years.
    In conclusion, let me state that our top priority in visa 
adjudication is always national security. Every visa 
adjudication includes extensive biographic and biometric checks 
supported by data from the law enforcement and intelligence 
communities. In 2013, we improved this process even more, 
making possible an even more streamlined and comprehensive 
continuous monitoring of visa applicants.
    We are working with our colleagues across the Government to 
expand the successful Interview Waiver Program. We would like 
to discuss with Congress the legislative authority to expand 
the applicant groups who can receive visas without personal 
appearances, because waiving interviews for travelers who are 
better known to us allows us to dedicate valuable time and 
resources to less-known visa applicants.
    We believe that U.S. interests in legitimate travel, trade 
promotion, and educational exchange complement our border 
security mission. Consular Affairs also occupies a unique space 
at the nexus of foreign policy and national security. Our daily 
direct contact with the world gives us a perspective unlike any 
other in the U.S. Government. We will continue to innovate, 
increase our staff, and improve our facilities to ensure that 
the United States continues to be a secure and a welcoming 
country.
    Thank you. I will be pleased to answer your questions.
    [The prepared statement of Ambassador Bond follows:]

 Prepared Statement of Michele T. Bond, Acting Assistant Secretary for 
               Consular Affairs, U.S. Department of State
    Chairman Schatz, Ranking Member Scott, and distinguished Members of 
the Subcommittee, it is a distinct honor to appear before you to share 
the accomplishments of my colleagues in the Bureau of Consular Affairs, 
and our efforts to facilitate the legitimate travel of millions of 
tourists, businesspeople, students, and other visitors to the United 
States.
    The advances we have made are a credit to the hard work of consular 
staff around the world, but especially in emerging markets, where we've 
seen the greatest increases in demand for U.S. visas. I would like to 
update you on the efforts we have undertaken over the past few years.
Meeting Increasing Worldwide Demand for U.S. Visas
    I am pleased to testify to the enormous strides we have made in 
facilitating legitimate travel to the United States in support of the 
National Travel and Tourism Strategy. We recognize, as Secretary Kerry 
testified in April, that economic policy is foreign policy. We have 
sharpened our thinking about how market forces can advance our foreign 
policy goals. As a Bureau, we have made it easier for businesses to 
work with our embassies, and we have encouraged our consular officers 
to uphold the highest levels of public service. Our consular officers 
have always understood that they are often the first interaction a 
foreigner will have with an American official. The visa process 
protects our borders, but it is also an integral part of our public 
face beyond those borders. This is why we are committed to make that 
process as straightforward, clear, and applicant-focused as possible, 
without compromising security.
    We remain actively engaged in supporting the President's National 
Travel and Tourism Strategy Goals. Over the past year we have: 
continued to work with Brand USA on its communications plan for visa 
and port of entry policies and other projects; added travel and tourism 
links on embassies' and consulates' websites; launched a redesign of 
our primary website, Travel.State.Gov, to enable applicants to view 
critical information about the visa application process in a more 
streamlined, straightforward way; and participated in travel and 
tourism conferences and panels throughout the country, including the La 
Cita de las Americas Travel Conference, the Latin American Chamber of 
Commerce Annual Meeting in September, the Society of American Travel 
Writers 2013 Convention in October, the SelectUSA Summit in November, 
and the United States Travel Association's IPW trade show in April. The 
Bureau also participates fully in the Department of Commerce's travel 
and tourism initiatives, including attending the private-sector-led 
Travel and Tourism Advisory Board committee meetings, as well as co-
chairing (with the Departments of Homeland Security and Commerce) the 
Ease of Travel Working Group as part of the Tourism Policy Council. At 
our most recent Tourism Policy Council meeting, Secretary of Commerce 
Penny Pritzker, who serves as chair, and Secretary of the Interior 
Sally Jewell, who is helping lead implementation of the Strategy, 
commended Consular Affairs for its hard work in keeping visa wait times 
low and improving the visa process, thereby attracting more visitors to 
the United States.
    Consular officers at 224 embassies and consulates overseas issued 
almost 9.2 million nonimmigrant visas in Fiscal Year 2013, a 42 percent 
increase in just three years. We managed this dramatic growth by 
expanding our facilities, adding hundreds of new consular staff, and 
most importantly, streamlining procedures to maximize efficiency. 
International visitors spent a record-breaking $180.7 billion in 2013, 
an increase of more than nine percent compared to 2012. And as the 
Department of Commerce has previously indicated, increased 
international travel generates significant job growth: the growth in 
international visitors has supported roughly 175,000 new American jobs 
over the past five years.
    For many foreign visitors, the American experience begins in 
consular waiting rooms overseas. We take that responsibility seriously, 
and have worked with groups like Disney Worldwide Services and Brand 
USA to improve applicants' experience in our spaces. In China and 
Brazil, most applicants are in and out of our facilities in less than 
30 minutes. In our London waiting room, we present applicants with 
materials from state and regional tourism boards, inviting business 
travelers and workers to extend their trips with a leisure component so 
they can enjoy their U.S. experience in addition to conducting 
business. International travel and tourism has a deep impact on the 
United States, comprising 27 percent of the U.S.' services exports and 
supporting 1.3 million jobs. We are pleased to have a role in support 
of these hardworking Americans.
    The Bureau of Consular Affairs continues to do its part to 
facilitate the President's goals in Executive Order 13597, which in 
January 2012 directed Federal agencies to aggressively expand the 
Nation's ability to attract and welcome visitors while maintaining high 
standards of security. Since August 2012, Consular Affairs has met the 
goal to interview 80 percent of visa applicants worldwide within three 
weeks of submitting their applications. In 2013, the global average was 
over 92 percent; a 10 percent increase over 2012. At our busiest 
overseas post, Sao Paulo, Brazil, where we issued over half a million 
nonimmigrant visas in Fiscal Year 2013, appointment wait times are 
consistently less than one week.
The role of security has not diminished
    Consular officers, in addition to being the first Americans many 
foreigners will encounter, are also our country's first line of 
defense. Every visa decision is a national security decision. We train 
our staff extensively and continuously on interviewing and name-
checking techniques, fraud detection, and the use of myriad automated 
systems. Every visa adjudication comprises extensive biometric and 
biographic checks supported by a clearance process including data from 
the intelligence and law-enforcement communities, ensuring that our 
officers have the best data available at all times. We've improved this 
process in the last year, ensuring that we target more of our resources 
towards individuals who may pose a threat.
Meeting Demand, Especially in Emerging Economies
    In 2013, Brazilian visitors contributed $10.5 billion to the U.S. 
economy, a 13 percent increase from the prior year. During the same 
period, Chinese visitors contributed $9.8 billion, an 11 percent 
increase from the prior year, or $5,400 per visitor. To address this 
important opportunity to contribute to our country's economy, 167 
officers perform consular work in Mission China. Consular Affairs 
created over 50 new officer positions in China in Fiscal Year 2012 
alone. In the same year, we increased consular staffing in Mission 
Brazil by 40 percent within six months, and eventually increased 
staffing by more than 100 percent. We met the President's Executive 
Order target of 40 percent capacity increase in Brazil in June 2012 and 
in China in November 2012, both ahead of schedule.
    Coping with the explosive growth in demand for nonimmigrant visas 
in Brazil, China, India, and Mexico has been a major challenge for 
Consular Affairs over the past several years, but is one which we have 
addressed vigorously and successfully. We continue to direct our 
personnel and resources towards the locations with the greatest need, 
applying innovative solutions to these critical markets.
    In 2011, we realized our traditional hiring mechanisms wouldn't 
allow us to deploy officers quickly enough to meet exploding visa 
demand in Brazil and China. We weren't recruiting enough Portuguese-and 
Mandarin-speaking officers and could not wait for new entry-level 
officers to learn these essential languages. In response, the 
Department created a rapid hiring pilot program to ramp up staffing at 
critical needs posts. The first class of these adjudicators, appointed 
for one-year periods and limited to a maximum of five consecutive 
years, began in January 2012. That year, we brought on a total of 24 
Mandarin-speakers and 19 Portuguese-speakers, all of whom arrived at 
posts by mid-July. In Fiscal Year 2013, we expanded the program to 
recruit Spanish-speakers. To date, we have hired and deployed 59 
adjudicators under this program to China, Brazil, Mexico, Colombia, and 
the Dominican Republic, representing an added capacity of 900,000 visa 
adjudications per year.
    We are working to expand and remodel our consular facilities so we 
can interview more visa applicants on a daily basis. We are expanding 
our interviewing capacity in China by adding 22 new service windows in 
Guangzhou, 20 new windows in Shanghai, eight new windows in Chengdu, 
and eight new windows in Beijing. We expect one million Indians to 
visit the United States in 2015, and are adding 17 new windows in 
Mumbai to handle the additional workload. In the coming years we will 
open entirely new visa-processing facilities in Porto Alegre and Belo 
Horizonte, Brazil, and Wuhan, China.
    We also prioritize key groups of travelers, such as students and 
business visitors. Wait times for student visa interview appointments 
worldwide are less than 15 days. We prioritize student visa 
appointments because of the tremendous intellectual, social, and 
economic benefits foreign students provide to the U.S. economy. 
According to the Bureau of Educational and Cultural Affairs, 
international students contributed $24.7 billion to the U.S. economy 
during the 2011-2012 academic year. U.S. officials work closely with 
the American Chambers of Commerce in more than 100 countries to 
streamline the visa process for business travelers, and all U.S. 
embassies and consulates have established procedures to expedite 
appointments for urgent business travel.
    The Global Support Strategy is a worldwide program to optimize visa 
application support services, including: information provision through 
call centers and e-mail correspondence, appointments, fee collection, 
document delivery, greeters, and in some cases, biometric collection 
services. Offsite biometric collection facilities are in operation in 
Mexico, Brazil, India, Argentina, and Colombia; online scheduling makes 
getting an appointment easy and transparent for applicants; and with 
oversight by the Department, our contractors handle routine telephone 
and e-mail inquiries in many markets. This frees up space and staff at 
our embassies and consulates, creating additional capacity and allowing 
us to focus on the critical security-related screening that cannot be 
outsourced. We expect to have offsite support services in most of our 
consular sections worldwide by the end of this year.
    We are moving towards a foil-less nonimmigrant visa. The visa 
application has been fully electronic since 2010, and the next step is 
eliminating the visa foil itself. Leveraging our existing electronic 
systems and connections with our interagency partners will enable us to 
save money and reduce document fraud by eliminating the printed visa.
Interviews and Reciprocity
    One of the most effective ways we have to improve the efficiency of 
visa operations is to eliminate in-person interviews for low-risk 
travelers, while retaining all of the security checks that apply to 
every visa applicant. Although the Immigration and Nationality Act 
(INA) requires our consular officers to interview in-person all visa 
applicants aged 14 through 79, it also provides limited authority to 
waive interviews, including authority to waive for diplomatic and 
official applicants from foreign governments and for some repeat 
applicants. We are utilizing technology and advanced fraud detection 
techniques to help us expand the pool of applicants for whom interviews 
can be waived under the Interview Waiver Program. This allows us to 
focus resources on higher-risk visa applicants while facilitating 
travel for low-risk applicants.
    We are working with our colleagues across the government to expand 
this successful program, which became permanent in January 2014. In 
Fiscal Year 2013, we waived over 380,000 interviews, and a recent study 
showed that tourist and business visitor visa holders whose interviews 
were waived, all of whom were subject to the full scope of security 
checks, posed no greater risk for an overstay than those who were 
interviewed. We are interested in explicit legislative authority to 
supplement the existing Interview Waiver Program by adding additional 
low-risk applicant groups such as citizens of Visa Waiver Program 
members applying for other types of visas such as student or work 
visas; continuing students moving to a higher level of education; non-
U.S. citizen Global Entry and NEXUS trusted traveler program members; 
and holders of visas in other categories, such as students and workers, 
who wish to travel for tourism or business. The Department is 
interested in working with Congress on legislation specifically 
authorizing the Secretaries of State and Homeland Security to enhance 
our interview waiver programs.
    The law also requires us to set visa validity based on the validity 
of visas issued to U.S. citizens on a reciprocal basis. Following the 
Chinese government's formal offer in September 2012 to expand validity 
to five years, multiple entries for a host of visa categories, the 
interagency community has engaged in a series of meetings to assess the 
full range of implications and economic, cultural, and political 
benefits of longer visa validities for Chinese nationals. In 2013, we 
agreed to extend the validity of crewmember and transit visas to five 
years, multiple entries. Increasing Chinese visa validity for tourists, 
businesspeople, and students would provide a significant boost to the 
U.S. economy and would help Mission China successfully manage its 
consular resources. Of course, the Department does not act alone when 
it comes to decisions about visa validity; we must consult with the 
Department of Homeland Security and with other interagency partners 
where appropriate prior to increasing any period of visa validity.
    Finally, we are working with our U.S. Government colleagues to 
expand the Visa Waiver Program, consistent with U.S. law, as was 
recently done with the addition of Chile to the program earlier this 
year. With this designation, Chile now joins 37 other participants and 
is currently the only participant from Latin America. The Department 
supports the proposed amendments contained in the Senate-passed Border 
Security, Economic Opportunity, and Immigration Modernization Act, 
because we believe they would restructure the Visa Waiver Program in a 
manner that would strengthen law enforcement cooperation, while 
maintaining the program's robust counterterrorism and criminal 
information sharing initiatives and promoting commerce and tourism in 
the United States.
    However, we do not recommend offering premium visa processing. We 
believe many visa applicants would be willing to pay any ``premium 
processing fee'' in the false belief that payment of a higher fee will 
ensure visa issuance, thus making any such program less efficient and 
compromising the integrity of the visa process. The best approach to 
achieve greater efficiencies is the continued prioritization of 
student, medical, and urgent business travel applications, which is 
already in effect at consular posts worldwide. We will also pursue 
increased visa validity where reciprocal agreement can be obtained with 
interagency support.
Conclusion
    As consular officers, we occupy a unique space at the nexus of 
foreign policy and national security. We are first and foremost 
diplomats representing the United States. We strongly support the 
efforts of the Administration to improve the standing of the United 
States as a welcoming, exciting destination for travelers around the 
world. And we play an important role in our Nation's security, 
emphasizing at every available opportunity the primacy of security 
considerations in all our processes. This is drilled into every officer 
from the first day of training, and it is enforced by our systems as a 
part of every visa adjudication. We understand that maintaining secure 
borders complements our mission to facilitate legitimate travel.
    The extent of our daily direct contact with the world gives us a 
perspective unlike any other in the U.S. Government. Our officers study 
their host countries and become intimately familiar with their customs 
and cultures. When combined with in-depth training and knowledge of 
immigration law, the result is a singular ability to conduct visa 
operations around the globe, with our multifaceted national interest 
the ultimate beneficiary of our expertise.
    Our work affects U.S. interests directly on a basic, human level. 
Every issuance and refusal touches a person, a responsibility we take 
seriously. It is incumbent upon us to treat those individuals with the 
respect and dignity they deserve, and our service orientation 
demonstrates that every hour of every day. The Department of State is 
committed to improving our service and our security continuously, and 
we will apply every resource at our disposal to that end.
    This concludes my testimony today. I will be pleased to take your 
questions.

    Senator Schatz. Thank you, Ambassador.
    Mr. Stroud?

         STATEMENT OF MICHAEL STROUD, ACTING ASSISTANT

      SECRETARY, PRIVATE SECTOR OFFICE, OFFICE OF POLICY,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Stroud. Good morning, Chairman Schatz, Ranking Member 
Scott, and members of the Subcommittee. I am pleased to appear 
before you today to discuss the Department of Homeland 
Security's major travel and tourism initiatives.
    The travel and tourism area best showcases our dual goals 
of economic and national security. Every year, DHS facilitates 
the travel of tens of millions of international visitors. We 
secure passengers and their baggage, screen travelers as they 
cross our borders, and play an important role in the visa 
security process, among many other responsibilities.
    Facilitating secure travel is a priority for DHS. DHS is 
working closely with the Departments of Commerce and State, 
Brand USA, and others to boost America's tourism industry.
    At DHS, we view efficient and effective security as a key 
to a thriving economy, not as a barrier. Our goals of enhancing 
national security and boosting economic prosperity are 
fundamentally intertwined.
    In May 2012, the administration launched the National 
Travel and Tourism Strategy, setting a goal of attracting 
international visitors. To meet this goal, DHS and the 
Department of Commerce have already begun developing a national 
strategy for improving service levels for international air 
passengers.
    Specific action plans are under development, including 
input from both the private and public sectors. The 
stakeholders include airports; airlines; local, State, and 
Federal Governments; workers; and passengers, all with an 
essential role to play.
    DHS's greatest asset in both securing and facilitating 
international travelers is our dedicated work force. Thanks to 
congressional support, 2,000 new Customs and Border Protection 
officers will enhance security, help reduce wait times, and 
facilitate legitimate trade and travel, thereby benefiting our 
Nation's economy.
    To facilitate rising volumes of international travel, 
streamline entry processes, and improve the international 
travelers' experience, DHS continues partnering with private 
industry, including leveraging advanced technologies and 
expanding voluntary trusted traveler programs.
    One example is expanding TSA PreCheck to international 
carriers at U.S. airports, a long-term goal of our risk-based 
and intelligence-driven approach to aviation security. Another 
example is the President's support for developing a North 
American trusted traveler program. Finally, DHS continues to 
support the expansion of Global Entry with its international 
partners.
    DHS created a program that leverages private sector 
expertise, the Loaned Executive Program. This program brings 
government and industry expertise together to support efforts 
that promote DHS's travel and tourism goals. Last month, DHS 
announced seven Loaned Executive assignments to support these 
goals.
    These Loaned Executives will help to improve the travel 
experience for the American public and international visitors 
at our gateway airports. Private sector integration in the 
development of our policies and processes ensures a coordinated 
approach to identifying innovative solutions to our security 
challenges.
    Since 2003, DHS has collaborated with our international 
partners to expand security measures beyond our domestic 
borders. We believe that new initiatives should offer both a 
security and travel facilitation benefit. This is why we firmly 
believe that expanding preclearance operations in strategic 
areas, combined with expanding trusted traveler programs, will 
improve national security and facilitate legitimate travel all 
prior to boarding an aircraft bound for the United States.
    DHS continues to welcome the input and engagement of 
Congress, the private sector, and the traveling public to 
pursue our mission in an effective, innovative, and efficient 
way.
    Thank you for the opportunity to appear before you today, 
and I look forward to your questions.
    [The joint testimony of Mr. Stroud and Mr. Wagner follow:]

Joint Testimony of Michael Stroud, Acting Assistant Secretary, Private 
 Sector Office, U.S. Department of Homeland Security; and John Wagner, 
Acting Assistant Commissioner, Office of Field Operations, U.S. Customs 
      and Border Protection, U.S. Department of Homeland Security
    Chairman Schatz, Ranking Member Scott and members of the 
Subcommittee, we are pleased to appear before you today to discuss the 
U.S. Department of Homeland Security's (DHS) major travel and tourism 
initiatives. There is no better area in which to showcase our dual goal 
of economic and national security than our work to foster and 
facilitate travel to and within the United States. The U.S. travel and 
tourism sector is critical to our Nation's prosperity and drives 
economic growth. Last year international visitors alone supported more 
than 1.3 million U.S. jobs.
    In May 2012, the Administration launched the National Travel and 
Tourism Strategy for expanding travel to and within the United States 
with a goal of attracting and welcoming 100 million international 
visitors annually by the end of 2021. Once achieved, these visitors are 
estimated to spend $250 billion on an annual basis. Two years later, we 
are on track to meet that goal. We have made significant progress on 
specific actions to encourage and make it easier for international 
travelers to visit the United States while continuing to secure our 
country.
    Today, our testimony will provide an overview of DHS' innovative 
efforts to improve the entry process and streamline the experience for 
international travelers moving through U.S. ports of entry.
    Every year, DHS facilitates the travel of tens of millions of 
international tourists visiting our Nation. The facilitation and 
security of travel and tourism is a priority for the Department and we 
are taking concrete steps, working closely with the Department of 
Commerce, to boost America's tourism industry. The focus of these 
efforts is to grow our economy, create more jobs, and continue to 
secure our country. At DHS, we view effective and efficient security as 
a contributor to facilitation, and not a barrier. Security measures are 
vital to protecting travel and tourism from the damaging effects of 
terrorist or other security incidents. Our goals of national security 
and economic prosperity are fundamentally intertwined.
    DHS programs, such as the Visa Waiver Program (VWP), provide 
valuable security and facilitation benefits before visitors even travel 
to the United States. VWP allows citizens of participating countries 
\1\ to travel to the United States without a visa for stays of 90 days 
or less, if they meet all requirements. Visitors traveling to the 
United States by air or sea and intending to apply for admission in 
accordance with the VWP must first apply for travel authorization 
through CBP's online application system--Electronic System for Travel 
Authorization (ESTA). Through this process, CBP incorporates targeting 
and database checks to identify individuals who are ineligible to enter 
the United States under the VWP and those who may pose an overstay 
risk, or who may present a national security or criminal threat if 
allowed to travel. CBP also continuously reviews ESTA applications for 
new derogatory information to identify persons whose eligibility for 
entry into the United States has changed since the ESTA authorization 
was initially approved. The VWP provides eligible low-risk visitors an 
opportunity to streamline and simplify the travel and admission 
application process before even arriving at a U.S. port of entry.
---------------------------------------------------------------------------
    \1\ The 38 countries currently designated for participation in the 
VWP are: Andorra, Australia, Austria, Belgium, Brunei, Chile (joined 
March 31, 2014), the Czech Republic, Denmark, Estonia, Finland, France, 
Germany, Greece, Hungary, Iceland, Ireland, Italy, Japan, South Korea, 
Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, Monaco, the 
Netherlands, New Zealand, Norway, Portugal, San Marino, Singapore, 
Slovakia, Slovenia, Spain, Sweden, Switzerland, Taiwan, and the United 
Kingdom. With respect to all references to ``country'' or ``countries'' 
in this document, it should be noted that the Taiwan Relations Act of 
1979, Pub. L. No. 96-8, Section 4(b)(1), provides that ``[w]henever the 
laws of the United States refer or relate to foreign countries, 
nations, states, governments, or similar entities, such terms shall 
include and such laws shall apply with respect to Taiwan.'' 22 U.S.C. 
Sec. 3303(b)(1).
---------------------------------------------------------------------------
    Building on a range of earlier travel and tourism promotion 
activities, DHS and the Department of Commerce started work last month 
to develop a national goal for improving service levels for 
international air passenger arrival. As part of this effort, DHS and 
the Department of Commerce will assess and identify opportunities to 
reduce the time passengers spend waiting for primary inspection and to 
fulfill other steps of the arrival process. Specific airport action 
plans are under development, including actions from both private and 
public sectors to measurably improve the entry experience.
    These goals and action plans will align with and build upon recent 
successful activities conducted in partnership with international 
airports, such as improvements at Dallas-Fort Worth (DFW) and Chicago 
O'Hare (ORD). At these locations, a combination of technology, trusted 
travel programs, and, at DFW, reimbursable service agreements, reduced 
wait times by nearly 40 percent on average over 12 months. These 
efforts reduced the percentage of travelers waiting over 30 minutes by 
more than half, resulting in a new 15-minute average wait time at DFW 
and ORD air ports of entry.
Improving the Entry Process
    Since 2009, we have experienced remarkable growth in international 
travel to the United States with total passenger volumes in our 
airports rising approximately four percent each year. In Fiscal Year 
(FY) 2013, U.S. Customs and Border Protection (CBP) processed more than 
362 million passengers in the land, sea, and air environments, 
welcoming a record 102 million air travelers. Travel and tourism are 
absolutely vital to our economy, and according to the U.S. Department 
of Commerce, in 2013, one new American job was created for every 73 
travelers arriving from overseas.
    Our greatest asset in both securing and facilitating these immense 
volumes of international travelers is our dedicated workforce. Thanks 
to the support of Congress, funding for 2,000 new CBP officers was 
included in the Consolidated Appropriations Act, 2014.\2\ The 2,000 
will be allocated utilizing CBP's Workload Staffing Model (WSM) and 
directed to the ports with the greatest need for additional officers. 
They will enhance security, help reduce wait times, and facilitate 
growing volumes of legitimate goods and travelers that are critical to 
the health of our Nation's economy. We are pleased to report that the 
job opportunity announcement for these positions opened on May 2, 2014 
and we are poised to hire all 2,000 by the end of FY 2015. It is 
important to note that this is a good down payment, but unfortunately, 
no port of entry will be ``made whole'' with this allocation. CBP will 
continue to pursue transformation efforts, new reimbursement 
authorities, and partnerships with our stakeholders. The President's FY 
2015 Budget request calls for user fee increases that would fund an 
additional 2,000 CBP officers.
---------------------------------------------------------------------------
    \2\ Pub. L. No. 113-76
---------------------------------------------------------------------------
    The extent to which wait times affect the local and national 
economy was most recently studied by the National Center for Risk and 
Economic Analysis of Terrorism Events (CREATE), a DHS Center of 
Excellence. CREATE issued ``The Impact on the U.S. Economy of Changes 
in Wait Times at Ports of Entry'' \3\ in March 2013. Their analysis of 
17 major passenger land crossing ports of entry (POE), 12 major freight 
crossing POEs, and 4 major passenger airport POEs, found that an 
increase or decrease in staffing at the ports of entry has an impact on 
wait times and, therefore, on the U.S. economy. More specifically, 
adding a single CBP Officer at each of the just 33 studied border 
crossings equates to annual benefits of: $2 million increase in Gross 
Domestic Product; $640,000 saved in opportunity costs; and 33 jobs 
added to the economy.
---------------------------------------------------------------------------
    \3\ ``The Impact on the U.S. Economy of Changes in Wait Times at 
Ports of Entry,'' National Center for Risk and Economic Analysis of 
Terrorism Events (CREATE), University of Southern California, released 
April 4, 2013 (dated March 31, 2013).
---------------------------------------------------------------------------
    To further facilitate rising volumes of international travel, 
streamline entry processes, and improve the international traveler's 
experience, DHS is partnering with private industry, leveraging 
advanced technology, and expanding voluntary trusted traveler programs 
and international initiatives.
Partnering with Private Industry
    DHS will continue to work closely with industry to learn from their 
expertise, engage on best practices, and identify new opportunities to 
improve our operations. We are taking a fresh look at the entry process 
and looking for new ways to create an easier and more welcoming entry 
experience for visitors to the United States. It is only through strong 
partnership and cooperation that we can realize the full benefit of 
innovation and our mutual goal of facilitating travel to the United 
States. The significant improvements realized in DFW and ORD exemplify 
what can be accomplished through this type of public-private 
collaboration.
    Another example of DHS' efforts to leverage private sector 
expertise is the Loaned Executive Program. This program brings 
government and industry expertise together to support efforts that 
promote the Transportation Security Administration (TSA) and CBP-led 
travel and tourism goals. Last month, DHS announced the opening of six 
assignments under the Loaned Executive Program for private sector 
leaders to support the Department's travel and tourism initiatives. We 
want to leverage the private sector's best talent to improve the travel 
experience for the American public and those who we welcome as visitors 
to our country. Private sector integration in the development of our 
policies and processes ensures a coordinated approach to identifying 
innovative solutions to our homeland security challenges. We look 
forward to the input from these experts as we work to transform 
operations at our airports.
    DHS is also working to develop stronger metrics to measure our 
progress in improving customer service at air ports of entry. CBP 
recently hosted a meeting with dozens of travel industry stakeholders 
to begin to define metrics for an entire range of customer service 
processes and procedures. Our intention is to develop national goals 
and effective measurements for improved service levels that consider a 
variety of factors such as wait times, volume of travelers, economic 
benefits of tourism, and enforcement statistics.
Using Technology to Automate and Streamline
    CBP staffing levels have not kept pace with increases in both trade 
and travel since 2009, resulting in increased wait times and service 
levels at many ports of entry. CBP developed and implemented the 
Resource Optimization Strategy (ROS) to ensure the efficient use of 
staffing and other resources. The ROS has three main components: (1) 
optimize current business processes through Business Transformation 
Initiatives (BTIs); (2) identify staffing requirements accurately 
through the WSM; and (3) explore alternative funding strategies to 
increase revenue sources supporting staffing.
    In addition, CBP continues to transform border processing 
operations by implementing and optimizing innovative solutions based on 
operational need. A hallmark of CBP's efforts to modernize the travel 
process is the expansion of Automated Passport Control (APC), which 
enables eligible air travelers to complete the administrative portion 
of their processing at a kiosk, reducing overall inspection time from 
approximately 55 seconds to 30 seconds--a savings of over 60,000 
inspectional hours through FY 2015. APC kiosks also increase security 
by allowing officers to focus on the passenger instead of paperwork. In 
the past year, 15 airports purchased and deployed this streamlining 
technology, and there are plans for another 10 to join by the end of 
the year. A number of these airports, including John F. Kennedy 
International Airport, Orlando International Airport, ORD, and DFW, 
have experienced reductions in average wait times of 30 percent or more 
after APC kiosks have been installed.
    To increase efficiency, reduce operating costs and streamline the 
admissions process, CBP has automated Form I-94, DHS Arrival/Departure 
Record, for foreign visitors arriving at air and sea ports of entry. 
CBP now gathers travelers' arrival and departure information 
automatically from their electronic travel records, making the entry 
process easier and faster for travelers as well as increasing security 
and reducing Federal costs. CBP estimates the automated process will 
save the agency $15.5 million per year in administrative costs and over 
$10 million in salaries and expenses through the savings of 80 CBP 
Officers through FY 2015.
Trusted Traveler and Expedited Screening Programs
    Identifying and separating low-risk travelers from those who may 
require additional scrutiny is a key element in DHS's efforts to 
facilitate and secure international travel. DHS has increased the 
enrollment and usage of trusted traveler programs that are essential to 
our risk-based approach to facilitating the flow of travelers into the 
United States. CBP's trusted traveler programs, such as SENTRI, NEXUS, 
and Global Entry, provide expedited processing upon arrival in the 
United States for pre-approved, low-risk participants through the use 
of secure and exclusive lanes and automated kiosks. At the end of 2013, 
more than 2 million people had access to CBP's Trusted Traveler 
Programs--a nearly 60 percent increase from the previous year. These 
trusted traveler programs have reduced CBP's resource requirements by 
over 70 CBP officers. Global Entry is available for eligible 
participants at 47 airports. Travelers using Global Entry kiosks now 
account for 10 percent of all international air arrivals on the busiest 
travel day of the week.
    CBP has also partnered with TSA to extend TSA 
Pre3<SUP>TM </SUP>benefits to our trusted travelers. TSA 
Pre3<SUP>TM </SUP>is a voluntary prescreening process used to perform 
risk-assessments on passengers prior to their arrival at the airport. 
These programs are a valuable contribution to the efficient processing 
of travelers. They enable TSA and CBP to focus resources on the small 
percentage of passengers warranting additional scrutiny, while 
expediting the screening and processing for known and trusted 
travelers. Today, TSA is providing expedited screening to more than 5 
million travelers each week, and over 40 percent each day at 118 
domestic airports in partnership with participating U.S. air carriers 
and CBP.
    DHS also announced recently that travelers flying on Air Canada may 
be eligible to receive expedited security screening through TSA 
Pre3<SUP>TM </SUP>when flying out of participating U.S. airports. With 
this announcement, Air Canada becomes the first international carrier 
to partner with DHS and offer its customers advanced security screening 
that is the hallmark of TSA Pre3<SUP>TM</SUP>. We are working closely 
with other international air carriers and expect to announce similar 
partnerships later this year. Expanding the TSA 
Pre3<SUP>TM </SUP>initiative to international carriers that have a 
significant presence at U.S. airports has been a long-term goal of our 
risk-based and intelligence-driven approach to aviation security.
International Initiatives
    Since the formation of DHS in 2003, we have collaborated with our 
international partners to push security measures out beyond our 
domestic ports of entry. These effective security programs also provide 
valuable facilitation benefits to international travelers. We believe 
that new initiatives should offer a net security benefit--that is, any 
measure proposed should do more than merely displace the risk from one 
location to another. This is why we firmly believe that establishing 
preclearance operations in strategic areas will assist in identifying 
terrorists, criminals, and other national security threats prior to 
boarding aircraft bound for the United States. We recognize the 
benefits private-public partnerships bring to the preclearance business 
plan. We intend to establish more of these at overseas airports that 
are last points of departure for flights into the United States. Each 
proposed location for expansion is reviewed carefully to ensure the 
operation would be cost effective and provide positive returns with 
regards to a wide spectrum of U.S. interests.
    Expansion of preclearance will positively impact the overall 
traveler experience by reducing wait times at both CBP and TSA U.S. 
domestic air ports of entry and provide economic opportunities to air 
carriers and tourism stakeholders.
Improving and Streamlining the Traveler Experience
    First impressions are important. A foreign visitor's first and 
primary encounter with the U.S. Government is often with the 
Departments of State and Homeland Security, and these interactions 
shape visitors' opinions about the United States. DHS and our travel 
industry partners have worked together to improve processes for 
welcoming travelers into our country while maintaining the highest 
levels of security and professionalism.
    In February 2011, CBP launched a new comprehensive basic training 
program for new officers. The program prepares trainees mentally, 
physically, and ethically to meet the challenges and demands of a law 
enforcement position and equips them with the specific skills needed to 
perform their duties with a high level of competence. CBP has taken a 
proactive management approach in addressing passenger processing issues 
and is constantly working in partnership with airport authorities, 
airlines, and the travel industry to identify new ways to more 
efficiently facilitate the entry process.
    Our commitment to improving customer service also led to the 
development of the Model Ports program. Created in 2006, the Model 
Ports program focuses on making the entry process more streamlined, 
understandable, and welcoming. One of the best practices of the Model 
Ports program is the establishment of the Passenger Service Manager 
(PSM) position, a key advocate for promoting traveler satisfaction. The 
PSM is a uniformed CBP manager able to respond to traveler complaints 
or concerns; oversee issues related to travelers requiring special 
processing; observe overall traveler processing; address issues on site 
as they occur; and provide recommendations for improvement of traveler 
processing and professionalism. Photographs and contact information for 
all PSMs are prominently displayed for maximum traveler visibility and 
access and will be available at over 300 ports of entry this year.
    To increase effective communication with arriving travelers, CBP 
previously installed audio and video technology in the passport primary 
queuing area to display CBP's informational video, ``Welcome to the 
United States `Simple as 1, 2, 3','' which presents travelers with 
step-by-step instructions on what to expect during CBP processing. The 
video is subtitled in eight languages and is seen by over 25 million 
visitors each year. CBP is currently updating this technology and 
videos to educate travelers on how to use APC kiosks. CBP is also 
partnering with the airlines to show these new, educational products on 
planes where possible.
Reducing Wait Times
    CBP strives to process arriving travelers, regardless of the port 
environment, as quickly as possible while maintaining the highest 
standards of security, and we closely monitor wait times for 
international travelers.
    Although CBP continues to address ways to manage wait times, other 
issues affect wait times, including concurrent arrivals that exceed the 
capacity of the airport and the need to staff multiple terminals. CBP 
is working to address these challenges by using existing resources more 
effectively, partnering with carriers and airport authorities on 
facilitation measures, and enhancing risk segmentation by increasing 
membership in trusted traveler programs.
    The Airport Wait Time Console is used to report on primary 
processing passenger wait times at the top 63 air ports of entry. This 
data is based on measurements of time intervals between the arrival of 
the aircraft and the processing of the passenger on primary. The wait 
time for each arriving passenger is recorded, and aggregates of these 
wait times may be obtained based on the individual flight, class of 
admission, time of day, or any other data element associated with an 
arriving air passenger. CBP reports wait times on our public website, 
and we continue to refine the reporting.
    The Airport Wait Time Console Real Time Flightboard utilizes live 
data feeds from multiple sources to create a view of passenger arrival 
data that allows CBP Field Operations personnel to make optimal 
staffing decisions. By taking into account such factors as aircraft 
arrival time and facility constraints, as well as passenger volume and 
admission class, CBP management at our air ports of entry are able to 
foresee how changes in any of the elements will require corresponding 
adjustments to staffing.
Partnership with Brand USA
    In support of efforts to expand legitimate travel and tourism to 
the United States, DHS works with The Corporation for Travel Promotion, 
doing business as Brand USA. The Corporation for Travel Promotion, 
established under the Travel Promotion Act of 2009, is a public-private 
marketing entity that encourages travelers from all over the world to 
visit the United States.\4\ CBP works closely with Brand USA to promote 
CBP programs such as the Electronic System for Travel Authorization 
(ESTA) and Global Entry and to identify ways of improving the traveler 
experience at U.S. ports of entry based on feedback from the customer 
satisfaction survey.
---------------------------------------------------------------------------
    \4\ Pub. L. No. 111-145, Sec. 9
---------------------------------------------------------------------------
    The experience of an international arrival passenger at one of our 
ports of entry is not limited to their interaction with the U.S. 
Government. CBP has made significant investments in improving the 
international arrivals process for both security and facilitation. 
Airports, airlines, and local governments also figure heavily into the 
passenger's experience--and they all have an essential role to play in 
creating a positive first impression.
    DHS is working to foster and facilitate a thriving travel and 
tourism industry, while maintaining the highest security standards. DHS 
continues to welcome the input and engagement of Congress, the private 
sector and the traveling public to pursue our mission in an 
increasingly innovative, efficient, and effective way.
    Thank you for the opportunity to appear before you today. We look 
forward to answering your questions.

    Senator Schatz. Thank you very much.
    Mr. Wagner?

         STATEMENT OF JOHN P. WAGNER, ACTING ASSISTANT

           COMMISSIONER, OFFICE OF FIELD OPERATIONS,

              U.S. CUSTOMS AND BORDER PROTECTION,

              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Wagner. Thank you, Chairman Schatz, Ranking Member 
Scott, members of the Subcommittee. Thank you for the 
opportunity to appear today to discuss ways U.S. Customs and 
Border Protection is securely facilitating travel to the United 
States.
    During 2013, CBP processed more than 362 million passengers 
in the land, sea, and air environments, welcoming a record 102 
million air passengers. Since 2009, we have seen remarkable 
growth in international travel with total passenger volumes in 
our airports rising approximately 4 percent each year.
    CBP staffing levels have struggled to keep pace with this 
growth, resulting in increased wait times at many ports of 
entry. One of the main challenges we face is the current 
international air transportation model that creates large peaks 
of passenger arrivals.
    For example, for a place like Miami airport, we will 
routinely see about 16 flights arrive per hour in the late 
afternoon/early evening. That is about 12,500 people over a 5-
hour period. So to address this ongoing challenge we have 
developed a three-part resource optimization strategy that, 
one, identifies staffing requirements using a workload staffing 
model; two, ensures the efficient use of resources by 
optimizing current business processes; and three, explores 
funding strategies to support the staffing increases.
    The workload staffing model employs a rigorous data-driven 
methodology to identify staffing requirements by considering 
all activities performed by CBP officers at the ports of entry, 
the volume of those activities, and the level of effort 
required to carry them out. The most recent results of the 
model show a need for 4,373 additional CBP officers through 
Fiscal Year 2015.
    CBP's greatest resource in both securing and facilitating 
travel is our professional work force. Thanks to the support of 
Congress, the 2014 Appropriations Act included funding for 
2,000 new CBP officers. These additional officers will be 
allocated utilizing the workload staffing model and directed to 
those ports with the greatest need.
    While the 2,000 additional officers will bring significant 
support to our mission, the workload staffing model identifies 
a need for an additional 2,000 CBP officers. This has been 
included in the 2015 budget request, along with a proposal for 
user fee increases to fund this effort.
    We realize personnel alone is not the answer to improving 
the arrivals process. CBP has been relentlessly self critical 
to ensure our operations are as efficient and secure as 
possible. We are incorporating technological enhancements, 
developing self-service kiosks, and reducing paper forms for 
travelers.
    We have implemented programs that segment arriving 
travelers into efficient processing modes. Like an E-ZPass lane 
at a tollbooth, CBP's trusted traveler programs like Global 
Entry provides expedited processing for pre-approved, low-risk 
participants through the use of automated kiosks.
    There are over 2.5 million travelers with Global Entry 
benefits, and to date, the Global Entry kiosks have been used 
over 9.3 million times. On the busiest travel day of the week, 
travelers using these kiosks can account for up to 10 percent 
of all international air arrivals.
    We have also worked closely with the airport authorities 
and the airlines to deploy automated passport control kiosks, 
also known as APC. These are like the exact change lanes at the 
tollbooth. APC enables travelers to complete the administrative 
portion of the arrivals process, thereby reducing the overall 
interaction time with the CBP officer and allows the CBP 
officer to really focus on the security aspects of that 
inspection process.
    In the past year, 16 airports have launched APCs, and 
several more are planned to join by the end of this year. At 
all these airports that have launched these kiosks, we have 
seen average wait times decrease by 30 to 35 percent after the 
installation of the kiosks.
    We have also automated Form I-94, the Arrival and Departure 
Record for foreign visitors arriving in air and sea ports of 
entry. We gather arrival and departure information 
automatically from electronic records, making the entry process 
easier and faster for travelers, in addition to reducing agency 
costs.
    We are also looking at the paper Customs Declaration Form 
and ways to automate or eliminate that process. We re-
envisioned several ways to clear CBP in the future through the 
use of the Internet, a mobile device, a kiosk, or seeing an 
officer, just like the options available when checking in for a 
flight.
    Effective and efficient security should be a contributor to 
travel facilitation, not a barrier. Security measures vitally 
protect travel and tourism from the damaging effects of 
terrorists or other security incidents. Identifying and 
separating low-risk travelers from those who may require 
additional scrutiny is a key element in CBP's efforts to 
facilitate and secure international travel.
    We are also dedicated to providing quality customer service 
to travelers. From training programs for officers to enhanced 
audio and video communication tools, providing travelers with 
clear instructions in many languages on CBP's entry process, 
CBP continues to enhance the ways we serve the public.
    In conjunction with the travel industry, we developed a 
traveler satisfaction survey to benchmark passenger 
satisfaction in CBP professionalism. Last year's survey 
findings indicated 80 percent of the travelers agree the entry 
process made them feel welcome in the U.S., and over 90 percent 
of travelers agree that the CBP officials are professional, 
helpful, efficient, and easy to understand.
    Chairman Schatz and Ranking Member Scott and members of the 
Subcommittee, thank you for the opportunity to testify today, 
and I am happy to answer your questions.
    Senator Schatz. Thank you very much.
    We will start with our Ranking Member Scott.

                 STATEMENT OF HON. TIM SCOTT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Scott. Thank you, Mr. Chairman.
    And thank you, members of the panel, for taking your time 
and investing your time in helping us to have a clearer path 
forward on improving our tourism, improving our economy, and 
perhaps improving our reputation as well.
    Ambassador Bond, a quick question for you. Our Fiscal Year 
2014 appropriations included a requirement for the State 
Department to pilot a visa video conferencing technology. That 
secure technology would allow State to conduct visa interviews 
remotely and provide a convenient solution for foreign 
travelers with limited access to U.S. consulates.
    Can you please give us an update on the status of this 
pilot program and how effective you think it has been so far?
    Ambassador Bond. Thank you, Senator.
    The Bureau of Consular Affairs is continuing to look into 
whether video could be incorporated into visa processing. We 
understand the allure and the attraction of the video 
interviewing idea. We have serious concerns about the security, 
efficiency, and integrity of video conferencing--video 
interviewing.
    We believe that expanding the pool of low-risk travelers 
who do not require an interview at all will realize far greater 
efficiencies than would video interviewing. We are focusing our 
efforts on utilizing technology and advanced fraud detection 
techniques to help us expand the pool of applicants for whom 
interviews can be waived. That would allow us to focus 
resources on higher-risk visa applicants, people we know less 
about, while better facilitating travel for the others.
    Expansion of Interview Waiver and the Visa Waiver Program 
are two efficient, effective methods for facilitating larger 
numbers of legitimate travelers. The video interview process 
can work when you are dealing with a known group, but when you 
are trying to interview, you know, several thousand people who 
are just coming in one after the other, sitting in front of the 
camera, we think there are really serious security and 
efficiency questions about that approach and that process.
    Senator Scott. So you perhaps focus more on identifying 
those low-risk travelers, as opposed to moving forward today on 
the use of that technology?
    Ambassador Bond. Yes, sir.
    Senator Scott. OK. Thank you.
    Assistant Secretary Stroud, we have heard a little about 
the Loaned Executive Program and how DHS is leveraging private 
sector expertise with six assignments under the program to 
support some of the Department's tourism initiatives. Can you 
give me a better idea of exactly what problems these roles will 
be focusing on and where within the Department they will be 
located, whether they will be in the field or at the 
headquarters?
    Mr. Stroud. Sure. Thank you, Senator.
    Let me first explain that the Loaned Executive Program is 
basically a program that allows DHS to take advantage of the 
private sector at essentially no cost.
    Senator Scott. Yes.
    Mr. Stroud. These folks continue to get paid by their----
    Senator Scott. Employers.
    Mr. Stroud.--private sector employers.
    Senator Scott. Yes.
    Mr. Stroud. We currently have on the travel and tourism 
side seven assignments posted. And they largely came about 
after a site visit to Miami International Airport, where we saw 
that very quickly with a couple of people from some of the 
larger theme-park areas in Florida, that their expertise on 
signage, their expertise in queuing people was invaluable.
    And so, we worked with CBP and TSA to jointly develop these 
descriptions to basically create a task force team that could 
go around to our various gateway airports and look at each 
airport because, as Administrator Pistole of TSA has testified, 
``Once you have seen one airport, you have seen one airport.'' 
So this team has to literally go to these airports and look.
    But to address your question with respect to where they 
will be located, they will actually dual report, essentially, 
to both TSA and CBP and also to the Deputy Secretary who, under 
the law, operates as a Chief Operating Officer for the 
Department.
    Senator Scott. Yes.
    Mr. Stroud. So that is where they will be located. They 
will be located ideally for about 6-month periods. And they 
will be used during that timeframe in a focused effort.
    Senator Scott. Thank you.
    Just a real quick question, since I am running out of time, 
for Mr. Wagner. On the CBP's preclearance operations with our 
strong allies like Canada, Ireland, and the Caribbean, this 
really has facilitated low-risk travel opportunities.
    And the Canadian preclearance, especially the Toronto 
location, has done a lot of good for our economy in South 
Carolina. I would love to get your perspective on the 
effectiveness of these programs, from a facilitation 
perspective and from a security perspective.
    Mr. Wagner. Well, absolutely. It fills both those needs for 
us. We are looking to expand the program with a lot of 
different of the gateway airports overseas, but it does help 
with facilitation benefits and certainly the enforcement and 
the security benefits of being able to search someone or 
inspect someone and approve someone for travel to the United 
States while on the ground overseas before they board that 
aircraft. So really essential for both the facilitative and 
security mission that we do.
    Senator Scott. Thank you.
    Thank you, Mr. Chairman.
    Senator Schatz. Thank you, Ranking Member Scott.
    Before I get into my questions, I just wanted to thank 
Ambassador Bond in her testimony for flagging the issue and the 
opportunities related to expanding the Interview Waiver Program 
and commit to you that I know for myself and many members of 
the Committee, we are anxious to facilitate in any way possible 
your work on the administrative side. And if there are 
legislative changes that need to be made, we are pleased to 
work with you on that.
    Mr. Wagner, as you probably know, CBP is working on 
resuming operations at the Kona airport. Resuming operations 
would provide another international gateway to Hawaii and help 
increase economic activity there.
    I know there are facilities issues. There are capacity 
issues. But from our standpoint, we are not--we are not landing 
commercial flights at the Kona airport for lack of resources, 
both at the State and Federal level. Do I have your commitment 
to work with us to solve that problem?
    Mr. Wagner. We will absolutely work with you. It is the 
facility requirements that we need to operate and then having 
the commercial airlines to come in to bring the traffic to us. 
But we will absolutely work with you.
    Senator Schatz. I can assure you that the commercial 
airlines will come if we can square away our end of the 
bargain.
    Thank you very much.
    Ambassador Bond, I understand the Interview Waiver Program 
has helped to reduce visa wait time and that the State 
Department would like to pursue possible legislative authority 
to expand that program. Could you put into perspective the 
benefits of this waiver authority?
    Ambassador Bond. Yes, thank you, Senator.
    The benefit of the waiver authority is that it allows us to 
carefully examine the people who are applying for visa 
applications and separate out the people about whom we already 
have quite a lot of information. An example would be someone 
from a visa waiver country who can already travel to the United 
States without getting a tourist visa and is now applying for a 
student visa.
    If that person has been to the States, we have information 
about their travel pattern. We have all of the screening that 
is done for 100 percent of travelers. We have the information 
that is provided in the applicant's application. We really 
don't need necessarily to interview that person.
    And because each application will be examined by a consular 
officer, if there is something in an individual application 
that raises a question, we can invite that person to come in 
for an interview. And there are other examples of people that 
we would be able to remove from the queue of people waiting for 
appointments and move them along and focus our attention then 
on the other folks about whom we know less.
    Senator Schatz. Thank you very much.
    Mr. Wagner, where are we with the development of metrics, 
and are we at a point anytime soon where we are going to have a 
maximum wait time target as an official policy of the CBP?
    Mr. Wagner. So we measure the wait times at all the major 
airports today. That information is posted on our website. We 
take two pieces of information that we have good data on, and 
that is the block time of the aircraft to the time we read the 
person's passport in that primary inspection area, and then we 
subtract out what the average walk time is to get from the 
plane to our area.
    So that data is calculated and tabulated every day. It is 
posted on the website for everyone to see, and it is broken 
down into different increments of how long people actually 
wait. So how many people waited 15 minutes or less, 30 minutes 
or less, 60 minutes or less.
    Like just yesterday, about nationally 75 percent of the 
people cleared CBP in 30 minutes or less. So we break it down 
into different useful boxes of information for the public. What 
we----
    Senator Schatz. What is your--I mean, it seems to me that 
it is not just a question of aggregating the data, but you are 
trying to eliminate the outliers where you create such a bad 
experience where people won't come back.
    In other words, if people are moving through at 2 minutes 
in non-hub airports, but there are consistent problems at hub 
airports, especially on the international side, then you are 
actually--you are removing people from the likely repeat 
traveler pool, even if your aggregate data looks good.
    Mr. Wagner. Correct. So it is an average of everyone. But 
even at the gateway airports, you know, we are seeing--you 
know, for instance, at Miami yesterday, our maximum wait time 
was 79 minutes. The average was 20 minutes throughout the day.
    But it is really those peak arrival times that, you know, 
if 15 flights land within an hour and a couple thousand people 
all come at us at once, we are working with the airport 
authorities and the airlines to find better ways to segregate 
that traffic into the risk analysis.
    We have already done all of our pre-arrival targeting and 
vetting of these passengers, and now we just have to match them 
up with that information. That is where the kiosks come in and 
automated passport control. That is where Global Entry comes 
in, and we can remove those people from the queue completely. 
Programs like 1-Stop for people with no checked bags.
    So we are trying to work the different ways through that, 
but we are also working with the local authorities on measuring 
the different points in the process.
    Senator Schatz. And where are we with setting a wait time 
goal?
    Mr. Wagner. So we have not looked at a national wait times 
goal. We are looking more at what are the right measurements to 
measure the increase in travel, the economic benefits that that 
brings?
    So if travel increases and wait time stays the same, that 
supports the goal. So we are looking more at what are the right 
metrics, what are the right things to measure in that process, 
rather than setting just an across-the-board goal, which a lot 
of those factors are outside of our control. The planes might 
land all at once, and all these people will come at us.
    You know, we don't have control over that, and I don't want 
to go down the road of us regulating those arrival times or 
trying to stagger those arrivals, or telling planes where they 
have to park at the airport so people come at us in some type 
of structured environment. So it is a deeper discussion we need 
to have about what it actually means to implement a goal like 
that.
    Senator Schatz. Thank you.
    My final question, for Ambassador Bond: Where are we with 
negotiations between the United States and China on reciprocal 
visa validity?
    Ambassador Bond. As you may know, Senator, currently the 
visa reciprocity for Chinese--for tourism, for business visas, 
students, and so forth is one year, and we are talking to the 
Chinese government about extending those visa validities for 
several categories in order to allow people to make long-term 
plans.
    If you are somebody who has a visa that lets you travel for 
several years, you are going to think ahead and start planning 
trips this year and next year and the year after. So we are in 
consultation with the Chinese government, and they are also 
interested in finding a way to get to yes on that.
    Senator Schatz. Thank you very much.
    Senator Blunt?
    Senator Blunt. Thank you, Chairman.
    Mr. Hyatt, in your testimony, you talked about the 
importance of reauthorizing what is now called Brand USA. I 
appreciate that. Senator Klobuchar and I have actually filed 
legislation to do exactly that. At the same time, we have 
included what I think are some important metric reporting and 
some accountability standards, and I want to ask you about 
those two things.
    One is the metrics you gave us today were pretty 
impressive--the increase in numbers, the increase in money 
spent. And what I am wondering is, what can you do, as you 
establish these reporting standards, to measure the impact of 
the marketing efforts themselves?
    Mr. Hyatt. We think of Brand USA as a global destination 
marketing organization for the United States, and therefore, 
the classic metrics to measure a destination marketing 
organization seem appropriate. The effectiveness of the 
marketing programs themselves.
    Second, the degree to which they shape intent to travel. 
Are people more likely to intend to travel to the U.S.?
    Third, the results themselves. Does it create additional 
travelers?
    And fourth, the return on investment.
    And that set of classic destination marketing metrics are 
those with which we are working with Brand USA, and seem to us 
to make sense as metrics. And they have built a pretty 
comprehensive dashboard to measure each of those as they engage 
in their marketing.
    Senator Blunt. And the numbers you gave today, the 
difference in 2012 and 2013 travel, would you say that Brand 
USA was responsible for some portion of that increase?
    Mr. Hyatt. We don't have the data to determine what portion 
they are responsible for. There are at a micro level marketing 
program after marketing program where the marketing partners 
talk about the results that Brand USA creates, and there is a 
lot of company by company, destination marketing organization 
by destination marketing organization responses suggesting 
tremendous return.
    In addition, Brand USA had a study commissioned by Oxford 
Economics, which also articulated the results that Brand USA is 
creating. So the indications are that value has been created by 
Brand USA in its activities.
    Senator Blunt. In the first year or so of implementing this 
new program, a program largely funded by visa waiver fees paid 
by people visiting the country--the funding is not any taxpayer 
funding from the United States--the visa waiver fees still has 
to be matched----
    Mr. Hyatt. Right.
    Senator Blunt.--by funds from the private sector. I know in 
the first year, we were concerned about the real value of any 
in-kind match, and I wonder what the Department has done and 
can do to more fully determine that value of the in-kind match.
    Mr. Hyatt. Thank you, Senator, for the question.
    We have spent a lot of time working with Brand USA and also 
third-party companies to help determine what is the most 
appropriate and effective way to determine the in-kind value. 
The challenge has been that many of the contributions that are 
coming from the private sector are to different countries and 
companies are contributing in different media--billboards, 
space on a website, etc.
    We have built now a set of procedures, trying to 
incorporate best practices from around the Government to value 
the in-kind. Where it is a unique or more difficult to value 
in-kind contribution, we rely very heavily on third-party 
valuations, and so I think both Brand USA and we are now 
comfortable that the procedures in place are efficiently and 
effectively measuring the in-kind contributions.
    Senator Blunt. And are there other metrics that you all 
have put in place to monitor the way money is being spent by 
the Brand USA board and the people they hire to run the 
program?
    Mr. Hyatt. And again, as I said, the metrics that we are 
watching are the metrics of the effectiveness of the campaign, 
of intent to travel, of results program by program, and what 
the ROIs (return on investment) are for those. And again, there 
is a dashboard there that is built that we are working with 
them on.
    Senator Blunt. Thank you.
    Chairman, if we have time for another round of questions, I 
may have some more. And if not, I will have more questions for 
the record.
    Senator Schatz. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Wagner, Senator Rubio and I are going 
to tag team on the issue of Miami and Orlando. And I understand 
you obviously have this on your radarscope because you have 
mentioned Miami several times.
    And it was curious to me when you specifically mentioned in 
Miami a 5-hour period where some 12,000 people are arriving all 
at once. Aside from the issue of the number of Customs and 
Border Protection officers, do you consider on a temporary 
basis shifting CBP officers from other locations for that high 
concentration of need?
    Mr. Wagner. Yes, absolutely. And that is what our local 
managers will do from other work areas within their environment 
to make sure we have enough booths open every single day.
    But we have been--Miami is of significant importance to us, 
especially with the World Cup travel and the increases American 
Airlines has projected out for the next couple of weeks. So we 
are looking at the wait times every day. I am getting a report 
every single day of how we are doing and how we are monitoring 
and adjusting to the traffic.
    I was just down there on Monday, walking through the 
facility and the operations with American Airlines and some of 
the other local stakeholders. But it is very important to us, 
and we want to make sure we are providing that level of 
service.
    Senator Nelson. So where would you get them? Would you get 
them from the seaport on a temporary basis? Would you get them 
from Fort Lauderdale? Where would you get them?
    Mr. Wagner. Well, we could use them from other areas within 
the airport, say, for cargo processing or other types of work 
environments that we can afford to take a few hours break from 
that activity to put into addressing the peak arrivals. Taking 
them from another airport is a little more challenging because 
of the travel times and the impact it brings on a place like 
Fort Lauderdale, which also have some wait time concerns of 
themselves.
    Senator Nelson. So are you doing this now?
    Mr. Wagner. We are doing it within the----
    Senator Nelson. Within the airport itself?
    Mr. Wagner.--within the airport itself.
    Senator Nelson. Not from the Port of Miami seaport?
    Mr. Wagner. No, we have not really looked at that, but that 
is an option that is available to us as we look through the 
summer peak arrival times.
    Senator Nelson. I will leave the other questions on Miami 
to Senator Rubio. But just to remind you that there was a 
period about 2 years ago in Orlando, where they had to keep the 
passengers on an international flight from deplaning for about 
an hour and a half because of the lack of officers.
    You all responded, but then the sequester hit. And so, I 
want you to be mindful of that as you are looking at your 
allocation.
    Mr. Wagner. Absolutely.
    Senator Nelson. Now, I am curious. I want to come at this 
from another standpoint, for all of you. We are facing a 
situation where we look like we are going to have a lot of area 
of Iraq and Syria that, at least for in the short run, is going 
to be controlled by an extremely radical terrorist group.
    And presumably, there are Americans who have gone to Syria 
for training. A Floridian was the one that blew himself up 
recently. But also a lot of Europeans.
    Okay, if they have got a European passport, what are the 
extra precautions that you take other than our overall 
terrorist search in a visa waiver country, which very well may 
be one of these homegrown terrorists, to catch them? Mr. 
Stroud?
    Mr. Stroud. I would say that primarily through our using 
our National Targeting Center with CBP, we begin to look at the 
travel patterns of folks, and we get that information well 
before they actually get on the plane. In addition to that, if 
you have taken a visit to Miami International, you will see 
that Customs and Border Protection executes all of their 
regular protocol with respect to arriving passengers, 
regardless of if they are Visa Waiver, or even Global Entry 
people still receive a check.
    And I will defer to my colleague on the rest.
    Mr. Wagner. So we are also working with our foreign 
counterparts in governments and allies to identify who these 
people are, who is associated with them and what else we can 
decipher from their intentions.
    But as Mr. Stroud mentioned, it is using our advanced 
analysis through the airline reservation data, going through 
that data, drawing links to pieces of information we know would 
give us national security concerns and who can be associated to 
that, but also looking at travel patterns based on prior 
activities or intelligence reports on what we think would 
present some national security concerns.
    And then it is a matter of reaching back out through the 
travel continuum and what is the right point in that process to 
intercept this person, talk to them, have them inspected, have 
them searched before they get onboard that plane. And it can 
be--we have officers stationed overseas at about 11 locations, 
major airports, CBP officers.
    Not so much preclearance, but it is called the Immigration 
Advisory Program. They are in plain clothes. But they get a 
list everyday of travelers that give us concerns, and they meet 
them at their boarding gates and talk to them and make a 
recommendation to the airline, whether or not the airline 
should fly this person based on national security concerns, or 
bringing them over to the host authorities to have somebody 
fully searched and checked before we allow them onto that 
aircraft.
    Preclearance gives us the other option because it is 
uniformed CBP officers in places like Abu Dhabi that give us a 
lot of concern with the types of connecting flights and 
travelers that go through there and the amount of national 
security activity that keeps us up at night. And having our 
officers on the ground there with full authorities to be able 
to search people and ensure they are safe before we put them 
onboard that aircraft.
    Senator Nelson. Thank you.
    Senator Schatz. Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Mr. Chairman, thank you, and to the Ranking 
Member, thank you for holding this hearing.
    And for our witnesses being here today, too, thanks for 
taking the time.
    I think we have a hearing on this subject every month, and 
if I was chairman, it would be every week. So, anyway, I am not 
complaining is what I am trying to say, because you can tell we 
are well represented from tourist states here. From Hawaii to 
Florida, Nevada, South Carolina, and Missouri, tourism plays a 
huge part.
    And you can imagine, in the State of Nevada, for 20 
consecutive years, we have been the number one meeting and 
convention destination in North America. This year, Las Vegas 
projects over 40 million visitors--an all time high--and 
tourism supports one in two local jobs. So what we are doing 
here today and what we are talking about is important, and I 
want to thank again the chairman and the ranking member for 
holding this particular hearing.
    Today, though, I am interested in learning what Washington, 
D.C., can do to continue the hard work on your behalf and on 
the States' behalf in the tourism industry. And that is why I 
am pleased you are here today.
    I am particularly interested in the ways we can open more 
international markets, markets like Brazil, while continuing to 
work to reduce wait times at our Nation's busiest airports and 
for those seeking to visit this country. This was a part of my 
debate on immigration reform and continues to be today.
    So, according to the Las Vegas Convention and Visitors 
Authority, international visitors stay longer and they spend 
more money during their stays. And with that in mind, I would 
like to ask a couple of questions.
    And I will start with you, Mr. Stroud. Specifically on the 
May 2012 strategy to expand travel to the United States with 
the goal of attracting 100 million international visitors 
annually by 2021, how are we doing? Can you quantify that?
    Mr. Stroud. Can I quantify it? I think we are making some 
big strides toward it. I think we are ahead of where we are 
supposed to be, and one of the things that I would obviously 
say, that the Secretary has already testified to, is the fact 
that expanding and facilitating the travel arrival experience 
will greatly increase that number.
    So one of those things is the preclearance locations, but 
also expanding Global Entry. If you look at the Department of 
Commerce's numbers on arrivals from 2013, 3.73 million people 
from Japan came to the United States.
    If you just took 1 percent of that and enrolled that in 
Global Entry and you use the number of about 300 passengers on 
a 777, which is the most common airframe flown, you would see 
it takes about 124 airplanes basically off the CBP lines and 
puts them into the Global Entry program, which we could even 
use overseas if we had a preclearance location. We have Global 
Entry located overseas.
    So that is why I think we are working toward that together. 
The Secretary is driven toward that goal, and I think we are in 
the process of doing that. And I would defer to my colleague 
from CBP to answer some of that as well.
    Senator Heller. If you would, please?
    Mr. Wagner. So it is looking at the different passenger 
arrivals experience. So it is getting rid of paperwork. It is 
getting rid of forms for them to fill out. It is building 
automated self-service kiosks that not only gives them a better 
experience but helps us then be more efficient and more secure 
in what we do.
    So seeing things like Global Entry for that frequent, low-
risk traveler, keeping a program like that. We see--you know, 
we are getting 60,000 to 70,000 applications a month for that 
program, and it has been steady at that for the last year or a 
year and a half. Tremendous uptick in that program.
    Usage can vary from 5 to 10 percent depending on day of the 
week, but it really tends to trend with the business travel. So 
later in the week, we see those percentages increase up to 10 
percent of total arrivals.
    Automated passport control for the infrequent traveler, for 
the family travelers, for the casual vacationers. You know, 
they can use some sort of automated process but still see the 
officer for a shortened process with that officer, and that 
helps makes us more efficient because it increases our 
capacity. And then what is the traveler experience after going 
through that? So----
    Senator Heller. Let me interrupt you. Do you have all the 
authority to do all that you are talking about? Or do you need 
more from us in order for you to streamline the process like 
you are talking about?
    Mr. Wagner. Authority wise, yes, we have the authorities to 
do that. We have very good relationships with the stakeholders 
that help design, build, and deploy these kinds of activities 
and really support us in that.
    Senator Heller. Let me ask a quick question because I am 
running out of time. What is it going to take to open up 
countries like Brazil? What are the challenges that we are 
facing?
    Mr. Stroud. That technically would be the current visa 
waiver statute. Currently, right now, Brazil would not qualify 
under the current visa waiver statute.
    Senator Heller. OK. So we need to address that?
    Mr. Stroud. Yes. And of course expanding Global Entry to 
other countries like Japan that don't currently have it. That 
would be helpful.
    Senator Heller. All right.
    Ambassador Bond. Sir, if I may----
    Senator Heller. Yes, please.
    Ambassador Bond.--just to add to that, the point that we 
did see a significant uptick in travel from Brazil when the 
visa validity went from 5 years to 10 years. When people were 
starting to get a visa that allowed them to travel in and out 
over a 10-year period, they started traveling more. And so, 
that kind of step can also assist in increasing the number of 
travelers.
    Senator Heller. Ambassador, thank you.
    And Chairman, thank you.
    Senator Schatz. Senator Rubio?

                STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Thank you.
    Mr. Wagner, I wanted to focus on Miami, as Senator Nelson 
previewed, because it is a real mess, and I fly through that 
airport all the time. I hear from them constantly.
    It is the second-busiest port of entry for visitors to the 
United States. It is the only airport in the top five that is 
going to have double-digit growth this year. This year alone, 
it is going to get a million more visitors than it did a year 
ago, which I think should be good news for the goal that is 
outlined as the purpose of this hearing.
    Here is the mess. From January to March of this year, the 
average wait time has been 59 minutes, but the problem with 
that is sometimes the wait time is as long as 190 minutes, 
which has been documented as the longest wait time in the U.S.
    I know we are going to brag about the fact that the wait 
times are down about 20 percent, which is good, but the problem 
with that, and I think you touched upon it earlier when you 
talked about the numbers yesterday, is that the average is 
basically the average of the entire day that flights are coming 
in. International flights come in waves, right?
    So you have a peak time of flights, and then you have a 
down time of flights. And sometimes the wait is zero because 
there are no international flights. And sometimes, the wait 
time has been documented to be as long as 3 hours. So there is 
a problem with the way that is documented.
    The damage is incalculable. Number one, you have missed 
connections. And I know you have heard from the airlines people 
are missing their connections. And the other is the word of 
mouth. I have here a collection of things people have put up on 
Twitter: ``Miami Airport line is a nightmare. First World city, 
Third World airport.'' This is Travel Advisor: ``Miami Airport 
is a joke. I have stood in line for immigration for over an 
hour many, many times. We now allow 3 hours from expected 
landing to departure of connecting flights.''
    Here is another TripAdvisor comment: ``Warning to all 
continuing passengers clearing Customs and Immigration through 
Miami. It is a nightmare. If you can avoid this, try to do 
so.''
    So this is really, really complicated and really 
problematic. And then I look at some of the models that are 
being used to make some decisions here. About 2,000 new 
officers have been approved. I know it is going to take about 
18 months to 2 years to get most of them online, which is, in 
and of itself, a very long wait given the damage that is 
already happening. It is what it is. But the model doesn't make 
a lot of sense to me.
    For example, Newark, which is not even on the chart of 
major delays, got 100 new agents, and Miami only got 60. So the 
second-busiest international airport in America got 3 percent 
of the new agents. Can you just explain to me, first of all, 
what was the model that led to that determination?
    Mr. Wagner. Correct. So the workload staffing model takes 
all of the activities a CBP officer does at a port of entry. It 
takes the average time to do each one of those activities and 
multiplies by how many times a day it is done. It comes up with 
the amount of hours needed to run a port of entry, divides by 
the available work hours of an officer, and comes up with this 
staffing number of what we think is the right number to run 
that port of entry.
    It is not optimal staffing. It would be the minimum needed 
required to address that workload. There are factors then that 
you can lay on top that as filters, such as all that work 
arrives at one point in time, and they overload the capacity of 
the entire system.
    There are other factors that we would look at for remote 
ports or splitting terminals or splitting the work up. So there 
are several factors that can influence that.
    So in the case of Miami, we provided--we allocated about 
between 80 to 100 officers the previous year to Miami airport 
in anticipation of the North Terminal opening. The other 
airports in the country didn't get that.
    JFK is going to receive the largest number of officers out 
of the 2,000 because JetBlue is opening a terminal this fall, 
and we need to staff that up. So, you know, Miami got a large 
influx of CBP officers to accommodate that growth. We agree it 
is not enough. We received--we are grateful for the 2,000 that 
Congress gave us, but it was about 60 percent of what we needed 
and really about 2 years after----
    Senator Rubio. So what I go back and tell the Miami airport 
is the reason why you are only getting 60 is because you got 80 
the year before?
    Mr. Wagner. Correct. So the workload staffing model tried 
to balance out the need, and we tried to spread that out evenly 
and make places on a similar status with the major gateway 
airports--LAX, JFK.
    The officers would have to come from somewhere. So we take 
them from an LAX, a JFK, a Las Vegas, El Paso, Detroit, 
Michigan, and move them to Miami. We try to use the workload 
staffing model to balance that out to keep us on record to see 
how far from the gaps that each place----
    Senator Rubio. I don't want to run out of time. I am 
interested to see what their response will be to that. But the 
second question that I have, it has to do with the staffing 
models once they are in place, how you allocate resources based 
on peak times.
    And you talked earlier about how there is close 
coordination with the airport and the airlines on when to surge 
up the number of agents versus when not to. Miami airport has 
told us, however, that you will not share the staffing model.
    Is the staffing model something that you don't share with 
the airlines and the airport? According to them, they don't 
know what the staffing model is for how you surge personnel.
    Mr. Wagner. No, we will share that with them, and I think 
we meet twice a day with the airlines and the airport operators 
to plan out the day's events. So we look at the manifest that 
we receive in advance from the airlines. We do some 
calculations that it takes about 1 minute to process a U.S. 
citizen, about two and a half minutes for a non-U.S. citizen 
because of the fingerprint requirements.
    We model out what the projected wait times are going to be 
and what the projected primary booth count should be, and then 
we lay our staffing over that to see how many booths can we 
afford to open and how much overtime we use to close those gaps 
and fill in the slots behind that.
    Senator Rubio. So you do share the staffing models with the 
airports?
    Mr. Wagner. We share that information with the airport.
    Senator Rubio. What about the model to determine when to 
surge personnel? Not the actual determination you come up with, 
but how you came up with it. Are they aware of what you used to 
determine how much personnel----
    Mr. Wagner. They should be, and if not, we will certainly 
share that information with them. How we come about the 
workload staffing model numbers, the activities that we--it is 
about a 170 different activities we counted to come up with the 
workload for the ports of entry, and we can share the average 
processing times of each one of those activities. There is 
nothing, say, secretive or controversial or classified behind 
that kind of information.
    Senator Rubio. Well, that is completely contrary to what 
the airport has told me. So we have got to figure this out.
    Mr. Wagner. Absolutely. I am happy to talk to them.
    Senator Rubio. I have one more question, but I will wait if 
there is going to be a second round, or we are going to have 
votes?
    Senator Schatz. We have a vote at 11:45 a.m.
    Senator Klobuchar?
    Senator Klobuchar. If he wants to ask one more question.
    Senator Schatz. Go ahead, Senator Rubio.
    Senator Rubio. It has to do with the kiosks. You have this 
program now where airports can pay to install kiosks, and Miami 
has it. I think they put in 75 new kiosks. Here is the problem 
they are having that I hope we can address, and this should be 
easy to address.
    The problem they have is that those kiosks, as they are 
currently configured, only work for U.S. citizens that are 
returning. As they are currently configured now in Miami, they 
don't work for the international passenger yet, which is where 
their wait times are coming from. What they need is a software 
upgrade on those kiosks so that they will work for 
international travelers.
    Can you work with us or can you pledge to us to get that 
software in there so that these kiosks that they have paid for 
will actually work for the cause of their waits?
    Mr. Wagner. They work today for U.S. citizens, U.S. 
permanent residents, and visa waiver travelers.
    Senator Rubio. OK.
    Mr. Wagner. What we have to add is the B-1/B-2 visa holders 
and people from visa----
    Senator Rubio. That is a software upgrade, basically.
    Mr. Wagner. That is a software upgrade and the programming 
to be able to do that and then the testing with them. We have 
not started working on that yet, but that is on--we just 
deployed for the lawful permanent residents. We did the VWP 
travelers a few months ago.
    Miami does about 35 percent of their total arrivals through 
those kiosks, but 100 percent agree we need to expand it to the 
B-1/B-2 visa holders.
    Senator Rubio. So what is the time-frame on that?
    Mr. Wagner. We have not sketched out what the requirements 
would be or what the timeline of that would be. But that is 
where we are going to focus on within the coming weeks, and we 
will have a better projection of what that timeline should be.
    Senator Rubio. Well, the sooner the better.
    Mr. Wagner. Absolutely.
    Senator Rubio. Because they have got a mess on their hands 
over there. I mean, I really worry about permanent damage being 
done to that port of entry.
    There are some Orlando issues, but we are out of time.
    Senator Schatz. Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you. Thank you very much for 
having this hearing.
    I think it has been really, actually, very useful. We have 
so many exciting things going on with tourism and challenges as 
well, and it is good to be here with my friend Senator Blunt--
we are heading up the Brand USA reauthorization--and also two 
Senators from Florida and Hawaii.
    And I would like them to know this, that Minnesota actually 
has more coastline, this is a true story, than the states of 
Florida, California, and Hawaii combined because of our lakes. 
I know you might not have thought that before.
    Senator Nelson. But not as many beaches.
    Senator Klobuchar. OK, not as many beaches.
    [Laughter.]
    Senator Klobuchar. So there are a lot of trees, a lot of 
trees hugging those lakes. But we are proud of our tourism and 
the Mall of America and really happy with the increases that we 
have seen because of the good work many of you are doing. We 
thank you for that.
    I thought Senator Blunt did a good job of focusing some of 
the changes that we have made and positive things, not only the 
positive past with Brand USA, but the bill that we have and the 
accountability measures.
    And I thought I would ask you about Global Entry first of 
all, Mr. Wagner. In addition to increased officer staffing, the 
continued expansion of Global Entry is another tool to maximize 
Custom and Border Protection's limited resources in a tight 
budget environment.
    While the program has continued to grow, as we all know, 
with the additional enrollment of U.S. citizens, expanding the 
reciprocal agreements with foreign governments would 
significantly increase CBP staffing efficiency. We know we have 
these agreements with Mexico, Canada, the Netherlands, and 
Korea. Could you talk about the possibilities of expanding to 
other countries?
    And while you are looking at your papers there--and also 
just how this is interacting with NEXUS with Canada?
    Mr. Wagner. Yes. So I will address the NEXUS piece first. 
So NEXUS and Global Entry are integrated.
    Senator Klobuchar. Right.
    Mr. Wagner. So if you are a U.S. citizen with a NEXUS card, 
you qualify for Global Entry.
    Senator Klobuchar. Mm-hmm.
    Mr. Wagner. If you are a U.S. citizen with a Global Entry 
card, you can use the NEXUS lane or the NEXUS kiosk to come 
home, but you can't use it to actually get into Canada unless 
you enroll in the NEXUS program.
    So for U.S. citizens, they are all intertwined and 
integrated. The cards are all integrated. Just the title at the 
top of the card is different, but it is the same RFID 
technology.
    Senator Klobuchar. And are there issues on the Canadian 
side or things we have to fix, you think or----
    Mr. Wagner. No. It is just really the capacity and reach of 
where we have the program. Global Entry, we are at 52 locations 
now.
    Senator Klobuchar. Mm-hmm.
    Mr. Wagner. We are still seeing 60,000 to 70,000 
applications a month coming in.
    Senator Klobuchar. Wow.
    Mr. Wagner. NEXUS has about 25,000 applications a month 
coming in, and that has been fairly consistent for the last 
couple of years. But collectively, with the SENTRI program on 
the Mexican border, we are doing over 100,000 applications a 
month for all of these programs.
    Senator Klobuchar. And then the other countries I 
mentioned?
    Mr. Wagner. So the other countries, we currently have 
agreements with--you mentioned a couple of them--South Korea, 
Mexico, Canada, the Netherlands. We have pilots limited by 
numbers with the U.K., Qatar, and Germany.
    We are working with those countries and Panama to increase 
the number of background checks that those governments can do. 
They are limited by how much work capacity those governments 
can take on to do the background checks. We would like to open 
it up to the U.K. without restriction, but it is really up to 
working with the U.K. government to take that on.
    I think we are fairly close with Japan. I just had a call 
yesterday with France. I think we are making some progress----
    Senator Klobuchar. OK.
    Mr. Wagner.--with them. But all of our major travel 
sources, these countries, we would like to sign up and join 
this program with----
    Senator Klobuchar. Good. And meanwhile----
    Mr. Wagner.--and then----
    Senator Klobuchar.--I think you know how if we get these 
tourists in, they spend an average of $4,500 when they come 
into our country. So that is a good thing.
    Mr. Wagner. Absolutely.
    Senator Klobuchar. Could I just move on to something else 
with Canada? Senator Blunt and I were just in Canada and heard 
a lot about their issues, and I know one of the things that is 
important is the border crossings.
    And the CBP has reached some private-public partnerships 
for the appropriations legislation for 2013 and 2014. And from 
what I understand, it allows private money to be leveraged with 
public money to improve border crossings, which also helps with 
freight and other things. And what I also understand is right 
now those projects have been piloted on the Mexican border.
    And I was up in International Falls, one of the busiest 
ports of entry in Minnesota, and we would like to commit--some 
commitment to add northern border sites for these partnerships 
as soon as possible. Do you know what is in the works?
    Mr. Wagner. So we have the reimbursable services 
availability to us, and then we also now have the donation of 
real property and services----
    Senator Klobuchar. Right. Mm-hmm.
    Mr. Wagner.--to us. So we have a handful of locations that 
are currently using the reimbursement----
    Senator Klobuchar. Yes.
    Mr. Wagner.--for services, and we have solicited for a next 
round of applications, which we have received, and we are going 
through selecting the final----
    Senator Klobuchar. Yes, but I----
    Mr. Wagner.--finalists----
    Senator Klobuchar. OK.
    Mr. Wagner.--for that.
    Senator Klobuchar. Are there northern border locations in 
the group, or even can you say?
    Mr. Wagner. I can say, but I don't remember offhand, so----
    Senator Klobuchar. OK.
    Mr. Wagner.--I will have to get back to you on that. We 
received a handful from the land borders. I will just have to 
look to see who was on that list.
    We should be making those announcements, though, by the end 
of the month as to who was selected. There is no restriction on 
the land border locations. They are on some of the 
international airports. We are still working with GSA on the 
procedures for the donation of real property, though, however.
    Senator Klobuchar. OK.
    Mr. Wagner. A little trickier for us. So we are still 
working on that aspect.
    Senator Klobuchar. OK. We really need to get the northern 
projects--I just think there was more focus on the Mexican 
border with those projects, and we need to extend this up to 
the northern border.
    Mr. Wagner. OK.
    Senator Klobuchar. So, all right. And I just thank you 
again, Mr. Hyatt, for visiting Minnesota--I am going to turn 
this over to my colleagues now--and the work that all of you 
are doing to promote tourism.
    Thank you.
    Senator Schatz. Thank you, Senator Klobuchar, and thank you 
for leading on these issues over the years with Senator Blunt.
    We will wrap up with Senator Blunt with some final 
questions, followed by Senator Nelson, and then we have a vote 
in a few minutes.
    Senator Blunt. Well, thank you, Chairman.
    Mr. Wagner, on the NEXUS/Global Entry question, I am 
assuming from what you are saying that the problem is Canada 
won't accept the Global Entry card?
    Mr. Wagner. It is not that they won't accept it. We have to 
tee up the approval for Canada to approve your entry into 
Canada. So it is not that they won't accept it, it is just they 
need to do their immigration and low-risk analysis of that 
person.
    See, with NEXUS, it is a joint application. So both 
governments get it for approval at the same time, and both 
governments interview the person. So it works in both 
directions. Global Entry, it is just for entry into the United 
States.
    So, as a U.S. citizen, you can use either program. You can 
always come home through one of the programs, but for entry 
into another country, you still need that government's approval 
through their process to enter that. So the programs are 
linked, but there is an extra step if you want to use Global 
Entry to enter Canada.
    Senator Blunt. And have we ever asked them if they would 
accept the Global Entry card in lieu of the NEXUS card? Or is 
this just something that they can't do from their point of 
view?
    My impression is the Canadians always at least purport to 
be much more open to our folks coming across than they think we 
are to coming the other way. So here is a place where we can 
say, ``Why don't you accept this card as an expedited entry 
card?''
    Mr. Wagner. We have discussed it, and it gets more into the 
authorities from the immigration admissibility end of who they 
can let into their country and who makes that determination, 
much like it is for ours----
    Senator Blunt. What is the cost for the application for 
NEXUS?
    Mr. Wagner. NEXUS is $50 for 5 years. Global Entry is $100 
for 5 years.
    Senator Blunt. So people have already paid $100 to get the 
Global Entry, and these are all people who are residing in the 
United States. It would seem to me we would do them a favor if 
we could convince the Canadians that, in the application 
process, you wouldn't have to go through it a second time for 
the people that want a NEXUS card if you could just issue them 
a NEXUS card?
    And maybe you do that. Do you do that? If somebody with a 
Global Entry card says we are going to go to Canada, you say, 
well, it is another $50 to get a NEXUS card. Is that the 
current process?
    Mr. Wagner. Correct. And then we have we have to tee them 
up for an appointment with the Canadian government so they can 
get interviewed by their border authorities much like we would 
do. And in that interview, they determine the identity--
admissibility into Canada with their immigration regulations 
and laws. And then they will issue----
    Senator Blunt. All right.
    Mr. Wagner.--that approval.
    Senator Blunt. This is something for us to talk to them 
about then. Maybe we can begin to talk----
    Mr. Wagner. Sure.
    Senator Blunt.--with the Canadian government on this topic.
    Just for the panel, generally. And maybe Mr. Hyatt, 
initially. When we first authorized Brand USA, there were a lot 
of critics that would say, ``Well, if we charge this visa 
waiver fee, that will discourage people from coming to the 
United States, and we will have fewer travelers. They will 
choose to go somewhere else instead.''
    Is there any evidence that any of the four of you have that 
the visa waiver fee has discouraged people from coming to the 
United States, and they have gone to other countries instead?
    Mr. Hyatt. We do not have any evidence of that.
    Senator Blunt. Ambassador, do you have anything at the 
State Department----
    Ambassador Bond. I agree with that, sir. No sign of that at 
all.
    Senator Blunt. Mr. Stroud?
    Mr. Stroud. No, sir.
    Mr. Wagner. No, sir. We have seen record increases in 
international air travel.
    Senator Blunt. Good.
    And the last thing I wanted to mention, Ambassador, on the 
visa reciprocity with China. Generally, our visa reciprocity is 
based on the fact that the other country is equally eager for 
our travelers to go there. So it is a mutual kind of 
determination.
    I have been persuaded for some time that with the Chinese, 
who may, based on a comment you made, be changing their view of 
this. They have not appeared to care very much about how 
difficult it was for our travelers to go there. We benefit from 
their travelers coming here. I don't know that reciprocity is 
something that is a goal that we have to be rigidly pursuing if 
we think it is to our advantage to have more Chinese travelers 
here.
    But the interesting comment you made to me is that we were 
both trying to get to--what I think what you said was they were 
trying to get to yes. Would you talk about that just a little 
bit more?
    Are they beginning to change their view of ``We want 
Americans to come here more and stay longer, and in return for 
that, we are prepared to have greater reciprocal relationship'' 
or not? And that will be my last question, Mr. Chairman.
    Ambassador Bond. Senator, the short answer is, yes, we very 
definitely have the understanding that China is also interested 
in looking at whether we can extend visa validities.
    Demand for travel to China has gone up, and they are, as we 
are--they are thinking about how to stay ahead of that demand 
and make sure that they are able to adjudicate those visa 
applications. So we do believe that there is interest on both 
sides in finding a way to agree on extended visa validities.
    Senator Blunt. If we can't, what you have done on renewing 
travel visas in a much better way than we had before has 
clearly made a difference.
    Mr. Chairman, thank you for your time and thank you for 
holding this hearing today.
    Senator Schatz. Thank you.
    Senator Nelson?
    Senator Nelson. They have called the vote, so I have a 
couple of questions.
    Mr. Hyatt, you testified about 40--no, let's see, it's up 
to $57 billion in trade surplus as a result of the travel and 
tourism industry in 2013. At the same time, we are running a 
trade deficit of about $471 billion. Now, if we can get to the 
President's target of 100 million visitors, what do we estimate 
the diminution of that trade deficit to be?
    Mr. Hyatt. Senator, that is a great question. We have not 
calculated that, but that is something we could calculate.
    We estimated that the 100 million visitors would generate 
$250 billion in service exports. I don't know that we have 
modeled the other side of it, which is where we expect outbound 
U.S. travel to be, but that is something we can get back to 
you.
    Senator Nelson. Does that equate to the $57 billion in 
trade surplus for the industry?
    Mr. Hyatt. The $57 billion trade surplus is in calendar 
year 2013----
    Senator Nelson. Right.
    Mr. Hyatt.--so it is exports minus American expenditures 
abroad. But your second question----
    Senator Nelson. I see.
    Mr. Hyatt.--around what 2021 looks like, we have not 
calculated. We have just calculated the exports.
    Senator Nelson. And your target is 2021?
    Mr. Hyatt. 2021 for 100 million visitors who we would 
estimate would spend $250 billion.
    Senator Nelson. OK.
    Madam Ambassador, let us go to Brazil. You testified as to 
a huge number of Brazilians that come to the U.S. I think you 
said something like 100,000?
    Ambassador Bond. Sir, I am not sure that I had that number 
in my testimony, but it is certainly more than that. There 
are----
    Senator Nelson. You named about four countries that had----
    Ambassador Bond.--that account for, I think, close to 50 
percent of all the visas that we issue.
    Senator Nelson. OK.
    Mr. Stroud. According to the Commerce stat, for 2013 from 
Brazil, we had 2.06 million visitors.
    Senator Nelson. OK. Now I can tell you a lot of them are 
coming to Florida.
    Ambassador Bond. Absolutely, they are.
    Senator Nelson. And they are specifically going to Miami 
and/or Orlando. So we do not have a visa waiver with Brazil. So 
if you are a Brazilian family and you want to go to Disney 
World, you have to go a consulate to have an eyeball-to-eyeball 
interview in order to get a visa. Is that right?
    Ambassador Bond. Yes, sir, although children under the age 
of 16 do not have to appear and travelers over the age of 66. 
So the parents might come but would not necessarily need to 
bring their children.
    Senator Nelson. OK. And last I checked, this is a year or 
so ago, we had two consulates. One in Rio and another one in 
Brasilia. Is that right?
    Ambassador Bond. No, sir. We also have consulates in Recife 
and in Sao Paulo. We are working to open consulates in Belo 
Horizonte and in Porto Alegre.
    And we also have what we call offsite facilitation centers 
so that the people who are planning to apply for a visa can go 
and get their fingerprints taken and the picture taken and 
submit their application online. So that when they actually 
come to the consulate, they move through extremely quickly. I 
mentioned in my testimony, on average they are in the consulate 
for less than half an hour.
    Senator Nelson. Right.
    Ambassador Bond. It is a very rapid process. Once they have 
the visa, they never have to come back because that visa, when 
it expires, can be renewed by mail, and we just send them the 
passport back with a new visa in it.
    Senator Nelson. And what is the application fee for a visa?
    Ambassador Bond. One hundred sixty dollars.
    Senator Nelson. Is that per person?
    Ambassador Bond. Yes, it is per person, and that is 
worldwide.
    Senator Nelson. Is there a discount for children?
    Ambassador Bond. No, sir, there is not.
    Senator Nelson. So for a family of four--two adults and two 
children--you are looking at some real money just to apply for 
a visa.
    Ambassador Bond. There is that cost. The fee that we 
charge, and it is a worldwide fee, but it is based on a very 
rigorous cost of service model that shows how much it costs us 
to actually provide that service. And so, we are recouping the 
cost of running the visa program that we have globally, and 
that is what determines the fee.
    Senator Nelson. And----
    Ambassador Bond. And just to add that the Brazilians do--
the visa is valid for 10 years. So they are paying the 
equivalent of $16 a year to apply for the visa.
    Senator Nelson. So if a family is raising children and they 
anticipate they want to take them to Disney World, they ought 
to go ahead because the visa is going to be good for 10 years.
    Ambassador Bond. That is exactly right. And what we clearly 
see across the world is that when travelers have a visa that 
has a longer validity, they just start thinking of themselves 
as a person who might travel again and again and again.
    They say, ``Well, we got that 20th anniversary coming up. 
We have got that 16th birthday,'' or 15th birthday for them. 
And so, they plan on travel to the United States. We see that 
very clearly.
    Senator Nelson. What percentage of your applicants do you 
reject giving a visa to in Brazil?
    Ambassador Bond. Sir, I don't have the number exactly. I 
would like to ask that I take that question and get back to 
you, but I am pretty sure for applicants for business and 
tourist travel, it is less than 10 percent. But let me----
    Senator Nelson. What about worldwide? What is your 
percentage?
    Ambassador Bond. Again, I am going to have to take the 
question. I am sorry. I don't know offhand.
    Senator Nelson. OK.
    Ambassador Bond. But it varies so dramatically from country 
to country.
    Senator Nelson. And Mr. Stroud, of those that are rejected, 
are the intelligence services--basically, the people that are 
rejecting--what percent are you thinking there is something 
squirrely about this person, as opposed to somebody that you 
think is just going to be a flight risk that is going to get 
into the country and stay?
    Mr. Stroud. I would have to take that for the record to 
give you----
    Senator Nelson. OK.
    Mr. Stroud.--an accurate break-out on that, sir.
    Senator Nelson. If you would.
    Mr. Stroud. Absolutely.
    Senator Schatz. Thank you, Senator Nelson.
    We want to thank the panel. This has been an impressive 
group of witnesses. You are all working hard on this issue. You 
are working smart, and I think you have seen from the 
participation in this subcommittee that tourism knows no 
ideology. It is a nonpartisan issue.
    And we look forward to working with all of your agencies 
and giving you the statutory authority necessary, the political 
support necessary, and the funding necessary to meet our 100 
million international visitors goal.
    Thank you very much.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]
                            A P P E N D I X

                       American Hotel & Lodging Association
                                      Washington, DC, June 26, 2014

Hon. Brian Schatz,
Chairman,
Commerce Subcommittee on Tourism, Competitiveness, and Innovation,
Washington, DC.

Hon. Tim Scott,
Ranking Member,
Commerce Subcommittee on Tourism, Competitiveness, and Innovation,
Washington, DC.

Dear Chairman Schatz and Ranking Member Scott,

    On behalf of the 1.8 million-employee U.S. lodging industry, we 
thank you for your leadership in holding this hearing on the important 
issue of expanded travel and tourism, and urge you to work toward the 
reauthorization of Brand USA as expeditiously as possible.
    Established by the Travel Promotion Act of 2010, Brand USA is the 
public-private partnership created to help attract millions of new 
international visitors by promoting this country as a premier travel 
destination. The program is paid for entirely by international 
travelers and voluntary industry donations; no taxpayer funds are 
involved. The positive impact of Brand USA is clear. A recently 
released economic report show that Brand USA's efforts in 2013 resulted 
in:

  <bullet> 1.1 million additional visitors to the U.S. who spent

  <bullet> $3.4 billion on travel and purchases, resulting in

  <bullet> $7.4 billion in total sales, which supported over

  <bullet> 53,000 new U.S. jobs, and generated

  <bullet> $1 billion in total sales tax revenue.

    Today, more than ever, we must actively promote our country abroad 
to maintain the pace of visitors. International travel adds billions of 
dollars to our economy and helps to create jobs. In 2012, international 
visitors contributed $180.7 billion in travel spending, supporting 14.6 
million jobs in all 50 states.
    Nearly every other country in the world has an official program to 
welcome international tourists to their nation, and the lack of a 
similar promotional program in the U.S. prevents us from maximizing the 
number of visitors to our country. Through industry efforts like Brand 
USA, travel is now increasingly recognized as a leading growth industry 
and a source of valuable jobs that cannot be outsourced. We look 
forward to working with you to reauthorize Brand USA.
            Sincerely,

The American Hotel & Lodging Association
Alabama Restaurant & Hospitality Alliance
Alaska Hotel & Lodging Association
Arizona Lodging & Tourism Association
Arkansas Hospitality Association
California Hotel & Lodging Association
Colorado Hotel & Lodging Association
Connecticut Lodging Association
Florida Restaurant & Lodging Association
Georgia Hotel & Lodging Association
Hawai`i Lodging & Tourism Association
Illinois Hotel & Lodging Association
Indiana Restaurant & Lodging Association
Louisiana Hotel & Lodging Association
Maine Innkeepers Association
Massachusetts Lodging Association
Michigan Lodging and Tourism Association
Minnesota Lodging Association
Montana Lodging & Hospitality Association
Nebraska Hotel & Motel Association
Nevada Hotel & Lodging Association
New Hampshire Lodging & Restaurant Association
New York Hospitality & Tourism Association
North Carolina Restaurant & Lodging Association
Ohio Hotel & Lodging Association
Oklahoma Hotel & Lodging Association
Oregon Restaurant & Lodging Association
Pennsylvania Restaurant & Lodging Association
Rhode Island Hospitality Association
South Carolina Restaurant & Lodging Association
Tennessee Hospitality Association
Texas Hotel & Lodging Association
Utah Hotel & Lodging Association
Vermont Chamber of Commerce
Virginia Hospitality & Travel Association
Washington Lodging Association
West Virginia Hospitality & Travel Association
Wisconsin Hotel & Lodging Association
Wyoming Lodging & Restaurant Association
      
                                 ______
                                 
     Prepared Statement of Colleen M. Kelley, National President, 
                   National Treasury Employees Union
    Chairman Schatz, Ranking Member Scott, distinguished members of the 
Subcommittee; thank you for the opportunity to provide this testimony. 
As President of the National Treasury Employees Union (NTEU), I have 
the honor of leading a union that represents over 24,000 Customs and 
Border Protection (CBP) Officers and trade enforcement specialists 
stationed at 329 land, sea and air ports of entry across the United 
States (U.S.).
    For years, NTEU has maintained that delays at the ports of entry 
result in real losses to the U.S. economy. According to the U.S. 
Department of the Treasury, more than 50 million Americans work for 
companies that engage in international trade and travel. And, according 
to a recent University of Southern California study, The Impact on the 
Economy of Changes in Wait Times at the Ports of Entry, for every 1,000 
CBP Officers added, the U.S. can increase its gross domestic product by 
$2 billion, which equates to 33 new private sector jobs per CBP Officer 
added.
    Travel and tourism also drive economic growth. According to the 
U.S. Travel Association, nearly 32 million overseas travelers visited 
the U.S. in 2013. For every 34 of these visitors, an additional 
American job is created. A recent U.S. Travel Association survey; 
however, revealed that delays in passenger processing, caused by 
staffing shortages at the ports, has discouraged international 
travelers from visiting the U.S. According to the survey, eliminating 
long lines and wait times at ports of entry would make the U.S. a more 
attractive destination, and, among survey respondents who had never 
come to the U.S., 40 percent said they would consider a visit if they 
knew they could count on timely entry processing.
    NTEU applauds Congress for recognizing that there is no greater 
roadblock to legitimate trade and travel efficiency than the lack of 
sufficient personnel at the ports. Earlier in the year, Congress passed 
the 2014 Consolidated Appropriations Act that provided funding to hire 
an additional 2,000 CBP Officers--for a total of 23,775 CBP Officers to 
be on board by the end of 2015. In its Fiscal Year (FY) 2015 budget 
submission, the Administration asked Congress to approve an increase in 
both customs and immigration user fees to fund an additional 2,000 CBP 
Officers to address the rise in the number of international travelers. 
NTEU strongly supports the increase of the immigration and customs user 
fees by $2 each to fund the hiring of an additional 2,000 CBP Officers. 
CBP collects user fees to recover certain costs incurred for 
processing, including air and sea passengers, and various private and 
commercial land, sea, air, and rail carriers and shipments.
    Increasing the immigration inspection user fee by $2 would allow 
CBP to better align air passenger inspection fee revenue with the costs 
of providing immigration inspection services. According to the 
Government Accountability Office (GAO-12-464T, page 11), fee 
collections available to Immigration and Customs Enforcement and CBP to 
pay for costs incurred in providing immigration inspection services 
totaled about $600 million in FY 2010, however, ``air passenger 
immigration fees collections did not fully cover CBP's costs in FY 2009 
and FY 2010.''
    Despite an enacted increase in appropriated funding in FY 2014 and 
2015 for an additional 2,000 CBP Officers, CBP will continue to face 
staffing shortages in FY 2015 and beyond. The Senate Appropriations 
Subcommittee on Homeland Security this week included language in its FY 
2015 mark a $2 increase in the immigration user fee to fund the hiring 
of an additional 1,000 CBP Officers at the air and sea ports. If this 
Committee and Congress are serious about job creation and meeting its 
goal to attract 100 million travelers annually, then you should support 
the Subcommittee bill language that increases the immigration user fee 
and enactment of legislation that increases Customs user fee by $2 and 
adjust both fees annually to inflation.
Foreign Language Awards Program (FLAP)
    Since 1997, CBP has implemented the Foreign Language Awards Program 
(FLAP), a program established by Congress in 1993 that incentivizes 
employees at the Nation's ports of entry who speak and use foreign 
language skills on the job to receive a cash incentive for enhancing 
their language skills, if they use the language for at least 10 percent 
of their duties, as well as pass language competency tests.
    In its FY 2015 budget submission, however, CBP has proposed cutting 
FLAP funding from the enacted FY 2013 level of $19 million to $3 
million. This Committee should be very concerned about the impact on 
the traveling public and CBP's security mission if an 84 percent cut in 
this valuable program is implemented. In the FY 2013 Senate Homeland 
Security Appropriations bill, Congress encouraged CBP to work with 
airport authorities to develop a ``welcome ambassador'' program and 
cited language in CBP's FY 2012 Improving Entry Process for Visitors 
Report stating, ``[CBPOs are] the first face of the U.S. Government 
that travelers see at ports of entry. As a visible symbol of our 
Nation, CBP Officers have an important responsibility.''
    Incentivizing CBP Officers to attain and maintain competency in a 
foreign language through FLAP, not only improves the efficiency of 
operations, it makes the U.S. a more welcoming place when foreign 
travelers can communicate with CBP Officers in their native language, 
and helps expedite traveler processing leading to reduced wait times. 
In a recent U.S. Travel Association Traveler Survey, adding entry 
processing personnel fluent in foreign languages ranked second in 
priority--only surpassed by reducing long lines and wait times.
    By authorizing FLAP, Congress understood that CBP Officers 
stationed at air, sea and land ports of entry are in daily, direct 
contact with international travelers. The facilitation of trade and 
travel, along with port security, is a dual mission of these employees. 
Not only do language barriers delay processing of trade and travel at 
the ports, but communication breakdowns can be dangerous for CBP 
Officers. Confusion can arise when a non-English speaking person does 
not understand the CBP Officer's commands. These situations can 
escalate quite rapidly if that individual keeps moving forward or does 
not take their hands out of their pockets when requested.
    Recognizing the importance of this program, Congress specified a 
dedicated funding source to pay for FLAP--customs user fees. Congress 
authorized user fees for certain customs services in the Consolidated 
Omnibus Budget Reconciliation Act. The Act stipulates the disposition 
of these user fees for the payment of overtime, premium pay, agency 
retirement contributions to the Civil Service Retirement and Disability 
Fund, preclearance services and FLAP (see 19 U.S.C., section 58c (f)(3) 
(A)(i)).
    FLAP has incentivized the use of more than two dozen languages, and 
has been instrumental in identifying and utilizing CBP Officers who are 
proficient in a foreign language. The majority of CBP Officers who 
receive a FLAP award do so on the basis of their proficiency in 
Spanish, but other key languages that CBP Officers are called upon to 
use include French, Chinese, Korean and Japanese. Qualified employees 
are also eligible for awards for the use of the following languages of 
special interest that have been identified as critical foreign 
languages in support of CBP's anti-terrorism mission:

        Arabic

        South Asian--Urdu (UAE, Oman), Farsi (Iran, Bahrain), Punjabi 
        (Pakistan), Dari-Pushtu (Afghanistan), Turkish (Turkey, Cyprus)

        Eurasian--Uzbek, Tajik, Turkoman, Uighur

        African Horn--Somalo, Amharic, Tigrinya

        Bahasa (Indonesia), Tagalog (Philippines)

        Kurdish (Karmanji)

        Russian

        Chechen

    In order for employees to receive an incentive, they must 
demonstrate proficiency in a foreign language via a test, and use the 
foreign language during at least 10 percent of their normal work 
schedule. The employee incentive is based on their competency level as 
determined by the exam. CBP Officers' foreign language skills are 
tested once per year--with two additional exams per year for languages 
of special interest.
    Only employees testing at Level 4 and 5 of language proficiency are 
eligible for the full 5 percent incentive payment. Those testing at 
Level 3 receive a 3 percent incentive award and those at Level 2 
receive a 1 percent incentive payment. All Border Patrol Agents and 
some CBP Officers are trained at their respective training centers in 
Level 1 basic Spanish. However, Level 1 is deemed so basic that it is 
not eligible for a FLAP incentive. Higher language proficiency and 
usage are necessary to be eligible for the FLAP incentive.
    Since FLAP was implemented, thousands of frontline CBP Officers at 
the ports of entry have chosen to maintain and improve their existing 
level of foreign language proficiency, and the program is further 
responsible for other frontline employees to acquire new foreign 
language capability at a much higher level than the basic Level 1 
proficiency. At CBP, this program has been an unqualified success, not 
just for the agency and its employees, but for travelers who are aided 
by having someone at a port of entry who speaks their language.
Recommendations
    To help the government in its continued efforts to attract 100 
million visitors annually to the U.S., grow the economy, and create new 
private sector jobs, NTEU urges the Committee to support:

  <bullet> Funding, including user fee increases, for additional CBP 
        personnel to ensure security and to mitigate prolonged wait 
        times for both trade and travel at our Nation's ports of entry; 
        and

  <bullet> Requiring CBP to continue providing the $19 million customs 
        user fee funding for all FLAP-eligible CBP employees.

    Thank you for the opportunity to submit this testimony.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Kenneth E. Hyatt
    Question. If we achieve the President's goal of attracting 100 
million international visitors annually by the end of 2021, what do you 
expect the impact will be on our national trade deficit?
    Answer. We believe that welcoming 100 million visitors to the 
United States would help reduce our national trade deficit. Based on 
recently revised statistics from the Bureau of Economic Analysis, 
travel and tourism has accounted for nearly $214.8 billion in U.S. 
exports in 2013, an increase of 47 percent from the $146.0 billion 
exported in 2009. We currently estimate that an increase to 100 million 
visitors would generate more than $300 billion in service exports 
annually.\1\ As we do not project outbound travel, we cannot however, 
estimate the precise impact on the trade balance.
---------------------------------------------------------------------------
    \1\ On June 4, 2014, the U.S. Bureau of Economic Analysis broadened 
the definition of travel to include health-related and education-
related travel and the expenditures on goods and services by border, 
seasonal, and other short-term workers, all of which were previously 
included in other private services. As a result, estimates for travel 
and tourism-related exports are greater (by 19 percent) than previously 
reported.
---------------------------------------------------------------------------
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Kenneth E. Hyatt
    Question 1. According to your written testimony, the Departments of 
Commerce and Homeland Security have started to develop a national goal 
for reducing wait times at U.S. ports of entry and improving service 
levels for international arrivals. What specific steps will the 
Department take moving forward to support this effort?
    Answer. The Department of Commerce (Commerce), in concert with 
Department of Homeland Security, the National Security Council and 
National Economic Council, is engaged in a robust outreach program to 
engage stakeholders at the national and local levels to gain input and 
insight on the development of the national goal and airport specific 
plans called for in the Presidential Memorandum of May 22, 2014. In 
addition, Commerce is providing data from the Survey of International 
Air Travelers on perceptions of the entry process. To assist in future 
planning, Customs Border Protection (CBP) and Commerce are working to 
integrate future projections of international arrivals into CBP 
projections on staffing needs. The Secretary of Commerce has requested 
that the Travel and Tourism Advisory Board provide specific advice on 
the formulation of the national goal.

    Question 2. The U.S. travel and tourism industry consists of small 
and medium-size businesses, from retail shops, to tour operators, to 
independent hoteliers. These types of firms have limited resources and 
stand to benefit from Federal support to access new markets and expand 
their businesses. How does the Commerce Department work with small and 
medium-size travel and tourism businesses to help them expand in 
international markets?
    Answer. The International Trade Administration (ITA) has offices in 
over 100 cities around the United States. The primary goal of these 
offices, called U.S. Export Assistance Centers (USEAC), is to work with 
American businesses of all sizes to help them prepare for exporting, or 
to expand to new markets if they are already exporting. At the same 
time, our National Travel & Tourism Office (NTTO) produces and posts 
online over 30 annual reports, provides monthly international arrivals 
forecasts and additional information. Small-and medium-sized (SME) 
travel and tourism (and other) businesses can work directly with ITA's 
USEAC officers to identify international markets that make sense for 
their products. In addition, ITA has staff in over 75 markets 
worldwide. ITA's staff can help get SMEs ready for exporting through 
some our services; such as: one-on-one counseling, market research, and 
matchmaking--introducing potential buyers for their products and 
services. In addition, the Department works with Brand USA to ensure 
there are programs in place to promote these offerings at an affordable 
cost, as part of their mission to promote rural communities and lesser 
known destinations.

    Question 2a. Could you explain how the Commerce Department ensures 
that these efforts support our 100 million visitor goal?
    Answer. Small-and medium-sized enterprises provide unique 
experiences to international visitors traveling to the United States. 
These diverse offerings, located in communities across the Nation drive 
visitation throughout the United States often times to less well-known 
destinations and rural communities. SMEs are critical to showing the 
diversity of the U.S.'s destinations and attractions. The United States 
has wide-spread attractions and demonstrating to visitors that one 
visit is not enough is crucial to attracting repeat visitation and 
meeting our goal of attracting and welcoming 100 million visitors by 
2021.

    Question 3. As we work to attract more international visitors, we 
should ensure that tribes, tribal organizations, and native communities 
across the United States are supported so that we can meet the 
significant visitor interest in the diverse and rich cultures of Native 
Americans. Enhancing tourism in native communities holds great 
potential to increase economic activity overall and disperse benefits 
more equally between urban and rural areas of our Nation. American 
Indians, Alaska Natives and Native Hawaiians contribute significantly 
to what makes our country unique and should be showcased appropriately. 
Growing this segment of the industry should be a foundational piece of 
our tourism strategy. What has the Commerce Department done to ensure 
that Native American tourism is an integral component in the Federal 
Government's travel and tourism promotion efforts?
    Answer. ITA has supported Native American tourism by facilitating 
tribal presence in travel and tourism trade shows in many different 
countries, by counseling and educating Native American tribes on how to 
export through annual presentations at Native American Tribal 
Conferences, and by providing one-on-one counseling with individual 
tribes. We also have a trade specialist who has been working with this 
community.
    In addition, for more than a decade, NTTO has provided market 
research data to tribes to help them understand the international 
market for travel to the United States, including information on the 
top markets that have an interest in Native American experiences. NTTO 
has developed articles for publication in Native American newsletters, 
and worked with the travel and tourism industry to encourage them to 
integrate Native American culture into their promotions and to engage 
with the tribes to promote their offerings to both the international 
travel trade and consumers/potential visitors.
    The Travel and Tourism Advisory Board (TTAB) is also focused on 
ensuring that those tribal organizations and native communities 
interested in travel and tourism are supported by the Board's work. The 
TTAB Cultural and Natural Heritage subcommittee met recently to develop 
its work plan, whose scope of work and overall objective is to 
``develop strategies and recommendations designed to effectively 
promote, quantify and celebrate the diversity of travel and tourism 
experience that are distinctive to the United States and that 
illuminate American culture, art, food, traditions, and natural 
surroundings in support of an enhancement to the National Travel and 
Tourism Strategy.''
    One of the six key elements of the scope of work is to ``support 
and promote America's indigenous history, peoples and cultures.'' 
Indigenous culture and heritage is included in each of the four tactics 
aimed at achieving that goal.
    The Subcommittee's work will continue throughout their tenure, and 
final recommendations will be submitted to the Secretary of Commerce 
prior to the completion of their term.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                            Michele T. Bond
    Question. What percentage of visa applications from Brazil are 
rejected? How does that compare to the worldwide average?
    Answer. In Fiscal Year 2013, the adjusted tourist visa (B) refusal 
rate was 3.5 percent for Brazilians and 15.1 percent worldwide.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Michele T. Bond
    Question 1. One possible way to increase foreign travel to the U.S. 
is to facilitate the ability of individuals to make multiple visits to 
the U.S. over time, and in that regard, we have agreements with many 
countries allowing travelers to obtain multiple-entry visas valid for 
as many as five years. However, despite the surge of foreign travel by 
Chinese nationals, the United States and China limit short-term 
business and tourist visas to one year. Would longer multiple entry 
visas with China increase travel and tourism to the United States?
    Answer. We anticipate if visa validity is extended, more Chinese 
tourists and business travelers will visit the United States, and they 
will visit us more frequently, increasing investment in our economy and 
strengthening their understanding of our country. During the July 9-10 
Strategic and Economic Dialogue in Beijing, the United States and China 
identified joint outcomes highlighting the depth of our two countries' 
cooperation on a range of issues. One of those outcomes explicitly 
states that, in recognition of the importance of travel and tourism to 
the two countries' economies, the United States and China are committed 
to exploring new proposals to significantly extend visa validity for 
tourists, short-term business travelers, and students.
    The Department of Commerce concurs with the assessment that 
loosening constraints on visas--including by increasing validity or 
removing the requirement for a visa altogether--typically results in 
increased travel to the United States. For example, when the United 
States extended visa validity for Brazilian travelers in 2010 (from 
five to ten years), the growth rate of Brazilian travelers arriving in 
the United States more than doubled.
    According to the Department of Commerce, in recent years the number 
of Chinese visitors has increased by as much as 35 percent over prior 
years, with 1.8 million travelers to the United States in 2013. These 
tourists collectively spent $9.8 billion while in the United States, 
supporting more than 70,000 U.S. jobs. Chinese tourists represent the 
7th-largest group of foreign visitors to the United States.

    Question 1a. Would this have any other consequences?
    Answer. Continuing to welcome Chinese visitors is key to 
encouraging investment, realizing the tremendous economic opportunities 
created by additional Chinese visitors, and expanding people-to-people 
exchanges--including a record number of Chinese students at U.S. 
universities and colleges.

    Question 1b. Is the State Department working to negotiate a longer 
visa period with China?
    Answer. Validity for Chinese C1/D (crew members) applicants was 
increased to five years, multiple entries, in October 2013. As stated 
in the July 10 Strategic and Economic Dialogue joint outcomes document, 
``The United States and China are committed to exploring new proposals 
to significantly extend visa validity for tourists, short-term business 
travelers, and students.'' We continue to hold discussions with the 
Chinese about reciprocal visa validity. The Department can provide 
further information in a separate briefing.

    Question 2. The U.S. Government has made some significant progress 
to increase its consular presence in China, but there is still a long 
way to go to fully improve the visa processing system in China. What 
are the current wait times for Chinese nationals seeking to obtain 
visas to travel to the U.S., especially outside of Beijing and 
Shanghai?
    Answer. Nonimmigrant visa (NIV) wait times in China have generally 
remained under the three-week target at every post since September 
2011, and average wait times have remained under ten days over the past 
two years.

    Question 2a. Do we have statistics that reflect the number of 
Chinese nationals who elect not to travel to the U.S. because of wait 
times?
    Answer. The Bureau of Consular Affairs has no data reflecting the 
number of Chinese nationals who elect not to travel to the United 
States due to wait times.

    Question 3. What measures are being taken in China and in other 
major tourist markets to increase the presence of consular officials to 
process visas?
    Answer. The Department continues to exceed the goals set out in 
President Obama's Executive Order 13597 of January 2012. In particular, 
the Department also continues to exceed the E.O. 13597's goal of 
interviewing 80 percent of nonimmigrant visa applicants worldwide 
within three weeks of receipt of application. E.O. 13597 also directed 
the Department of State to increase nonimmigrant visa capacity in China 
and Brazil by 40 percent in 2012. We met that target ahead of schedule 
and have not dipped below it since that time. In CY 2012 and 2013, the 
Department of State added 51 new officer positions in Mission China, 
and will add 25 new positions over the next two years. By the end of 
December 2016, we will have added 131 new interview windows in Mission 
China since 2010. We expect all windows to be fully utilized by the end 
of 2016. In July 2013, we opened our new consulate facility in 
Guangzhou. We plan to open our new consular section in Wuhan in the 
next few years.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Michele T. Bond
    Question 1. The State Department has taken steps to reduce visa 
wait times. It will be critical that we continue to maintain low wait 
times in non-Visa Waiver Program countries to encourage people to apply 
for a tourist visa. As the Federal government works to promote travel 
to the United States, how does the State Department plan to meet future 
demand?
    Answer. The Bureau of Consular Affairs (CA) is dedicated to 
facilitating legitimate travel to the United States while securing U.S. 
borders by ensuring that both domestic and overseas consular offices 
have world-class personnel, well-managed resources, and efficient 
processes. CA also continually monitors changes to the demand for non-
immigrant (NIV) applicants by post, mission, region, and worldwide, to 
better allocate staffing and resources.
    CA consistently tries to improve its services by regularly 
revisiting our flexible staffing model. While career Foreign Service 
Officer hiring is down, the overseas visa workload is growing. To meet 
this challenge, a joint CA and Human Resources working group 
established programs using Limited Non-Career Appointments, Civil 
Service administrative series employees and Passport Specialists, and 
U.S.-citizen family members to provide necessary staffing.

    Question 1a. How is the State Department planning for the long term 
and anticipating future visa demand in overseas markets? What steps is 
it taking to strategically target resources?
    Answer. Visas play a critical role in support of the President's 
goal to attract 100 million annual visitors to the United States by 
2021. Mexico, Brazil, China, and India are our fastest-growing markets, 
and are all among the ten countries whose visitors spent the most money 
in the United States in 2013.
    CA continuously plans for and anticipates future visa demand in all 
overseas markets using projection analysis to predict anticipated visa 
demand by post, mission, region, and worldwide. A continuous stream of 
incoming data undergoes rigorous analysis, enabling us to anticipate 
workloads and staffing needs by month and post.
    CA realizes increased efficiencies through ideas gleaned from the 
field. Our 1CA Leadership, Management, and Innovation office is focused 
on creating a culture of leadership, management, and innovation 
excellence across the Bureau. 1CA provides training, guidance, and 
resources to consular professionals to allow them to work more 
efficiently. Among 1CA's practical resources, the Innovation Forum 
helps consular professionals collaboratively develop and communicate 
innovative solutions to common challenges. Our consular managers use 
1CA management tools, such as business process mapping and value stream 
analysis, to improve applicant flow in our work spaces and reduce 
appointment wait times.
    The Interview Waiver Program (IWP) keeps low-risk applicants out of 
consular waiting rooms altogether. We have ideas about measures to 
expand travelers' eligibility for IWP without compromising border 
security.
    Our Global Support Strategy, a public-private partnership that lets 
the private sector handle non-governmental, time-consuming elements of 
the visa application process, including providing information services, 
fee collection, appointment scheduling, document delivery, and greeter 
services, has made the visa process even more efficient.

    Question 2. As U.S. Customs and Border Protection works to expand 
Global Entry, there may be opportunities to explore innovative methods 
for enrolling new, eligible U.S. citizens. Have the State Department 
and U.S. Customs and Border Protection considered the feasibility of 
coordinating the Global Entry application process with the U.S. 
passport renewal process?
    Answer. We have not had formal discussions with U.S. Customs and 
Border Protection (CBP) on this issue. However, we are currently 
exploring the feasibility of this endeavor.
    Passport Services (CA/PPT) began cross-promoting the Global Entry 
and TSA-Pre Check programs in October 2012. CA sent Trusted Traveler 
brochures, bookmarks, and other supplies, including a 60-second looped 
Global Entry public service announcements, to twenty-seven passport 
agencies and centers. The passport agencies and centers show and 
distribute these materials in their lobbies and at regional outreach 
events. We also include Global Entry and TSA Pre-check insert 
brochures, supplied by DHS, with all passports mailed out to our 
applicants. Our processing centers have mailed out well over 11 million 
inserts since this effort began.
    CA partnered with CBP and the Transportation Security 
Administration (TSA) on Global Entry Enrollment Events, where CBP 
conducted Global Entry interviews at the Department of State in 
February and March 2013.

    Question 2a. What would be the challenges in coordinating these two 
processes and what resources would be required?
    Answer. U.S. passports and Global Entry have differing periods of 
validity: the U.S. passport is valid for 10 years and Global Entry is 
valid for 5 years. This may cause confusion with the U.S. citizen 
traveler trying to determine when to renew the Global Entry 
registration, which agency to renew with, and how much the renewal will 
cost.
    Fees for U.S. passports are collected domestically and overseas. 
They include two Department of State retained components in addition to 
a portion of the application fee that is remitted to the Treasury. The 
execution fee for first-time passport applicants is retained by the 
acceptance agency or, when applying at a Passport Agency, is retained 
by the Treasury. If the Department of State were to also collect a 
Global Entry fee from passport applicants, the additional fee 
collection would further complicate an already complex accounting 
process and is likely to have Economy Act implications, under which any 
agency performing work for another must be reimbursed. It may also 
cause additional work for adjudicators in both the Department of State 
and U.S. Customs and Border Protection, who would also be required to 
determine whether the proper fees have been paid.
    If U.S. passport and Global Entry applications were submitted 
simultaneously, both agencies' intake procedures would need to be 
radically modified. Ninety percent of domestic passport applications 
are received and initially processed through Treasury's lockbox 
collection service. We are not sure that the lockbox function could 
handle the extra workload imposed by combining application processes.
    What we can consider doing initially is to provide a link from the 
State Department's travel website (http://travel.state.gov) in sections 
covering, ``Apply for a New Passport'', ``Before You Go'', and 
``Traveler's Checklist'' to DHS's Global Entry site, www.cbp.gov/
global-entry/about/. The website entry could contain the required 
disclaimer that approval for a passport does not guarantee Global Entry 
enrollment.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Bill Nelson to 
                             Michael Stroud
    Question. What percentage of visa applicants are rejected because 
of national security concerns? Are the U.S. intelligence services 
evaluating these applicants?
    Answer. DHS defers the response to the State Department, which is 
in charge of issuing visas and making determinations on visa 
applications.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                             Michael Stroud
    Question 1. Recent surveys by major travel organizations suggest 
that a significant number of visitors to the U.S., in some surveys as 
high as 20 percent, return home discouraged from ever returning to the 
U.S. because of what they view as long wait times for processing at 
domestic U.S. airports. What efforts are underway to address this 
problem and bring down the processing lines at U.S. airports?
    Answer. The Department of Homeland Security (DHS) has developed and 
deployed a traveler satisfaction survey to benchmark passenger 
satisfaction and U.S. Customs and Border Protection (CBP) 
professionalism at the top 20 airports. Two customer service surveys 
were conducted, by a third party (MedForce Government Solutions and LMI 
under contract to CBP), in November 2011 and August 2012 respectively. 
The surveys include questions developed in conjunction with the travel 
industry representatives, and the results were very instructive with 
regard to CBP performance. The survey results indicated broad 
satisfaction with the professionalism of CBP personnel and overall 
passenger wait times. For CBP the results of those surveys have been 
instrumental in continuing efforts to improve the passenger experience 
and to provide a welcoming environment for arriving passengers. 
Currently, DHS is developing and reviewing plans to capture traveler 
satisfaction metrics through the annual survey, to commence by the end 
of Calendar Year 2014.

    Question 2. As I understand, the U.S. is one of the few developed 
nations that does not have an accurate system to determine visa 
overstays, a fact that stands in the way of achieving significant visa 
reforms. Could you comment on the status of efforts to improve the 
tracking of overstays?
    Answer. Unlike many other countries, the United States did not 
build its airports and other border ports of entry with ``exit'' in 
mind, specifically the ability to collect data from individuals 
departing the country.
    Over the past decade, the Department of Homeland Security built the 
capability to collect biographic data on individuals entering and 
exiting the United States through our air and sea ports of entry, 
through regulations mandating data collection by commercial air and sea 
carriers along with private airline pilots. DHS receives this 
information and subsequently matches the exit information to data 
collected at entry, along with other DHS information, in order to 
identify individuals who overstayed their authorized period of 
admission. Beginning in 2010, the Department embarked on a multi-year 
plan to enhance its existing biographic exit program to allow for real-
time tracking and sanctioning of overstays.
    As part of this plan, various DHS Components have been and are 
currently strengthening systems and algorithms in order to improve the 
accuracy of data and automate the previously manual processes for 
identifying overstays.
    The improvements have already resulted in greater confidence in the 
data.

    Question 3. Many opponents of visa and immigration reforms that I 
support have cited the lack of a biometric entry/exit system as a 
reason for opposing reforms. I think everyone agrees with the need to 
keep better track of who is entering and exiting the country, and to 
crack down on visa overstays, but we shouldn't let disputes over the 
best approach prevent progress in other areas. That said, I understand 
that DHS has been testing a biometric system. Can you provide an update 
as to the status of these efforts?
    Answer. The Department of Homeland Security (DHS) Science and 
Technology Directorate (S&T) and the U.S. Customs and Border Protection 
(CBP), in collaboration with the National Institute of Standards and 
Technology (NIST), are conducting testing of biometric technologies in 
three different phases: a laboratory environment using simulated data 
to test the efficacy of the specific technology; in a scenario-based 
setting testing utilizing test volunteers in a simulated operational 
environment to test the combination of the technology and the current 
or proposed operational processes and during an operational field trial 
using actual travelers in a commercial airport environment. This effort 
is the basis of the Apex Air Entry/Exit Re-Engineering (AEER) project.
    The Apex AEER project is working to re-engineer both air entry and 
air exit operations in order to: (1) increase the capacity to screen 
travelers entering the United States to meet the increasing traveler 
volumes (i.e., 4 percent-5 percent annual growth) and to minimize 
traveler wait times; and (2) to identify a cost-effective concept of 
operation (CONOP) to biometrically confirm the departure of travelers, 
required to provide biometrics, from U.S. airports.
    Over the next two years, the Apex AEER program will develop, test, 
pilot, and evaluate integrated approaches to determine how new 
technologies and processes can expedite the screening of travelers.
    The Apex AEER Project will have three phases of evaluation to 
determine the best performing technology capabilities for integration 
into current airport entry and exit processes:

  <bullet> Laboratory testing to ensure biometric devices can perform 
        with current air entry/exit operations, and to determine the 
        biometric device applicability for each CONOP (Q3 FY14)

  <bullet> Scenario-based testing to validate technologies and CONOPs, 
        assess system performance, and mitigate impacts to operational 
        processes (Q4 FY14 through Q3 FY15)

  <bullet> Field trial period at one of the top ten air ports of entry 
        to determine the performance of a complete biometric exit 
        system under real world conditions. Site preparations and 
        surveys starting Q3 FY15 followed by on site testing through Q2 
        FY16 through early Q3 FY16.

    S&T will deliver a business case framework, including a methodology 
and criteria for the assessment and selection of proposed biometric/
non-biometric solutions to CBP. The framework will be an input for the 
purpose of informing business process transformation, system 
development, and technology acquisition.
    In addition to the partnership with S&T, CBP is also planning to 
run two field tests of biometric exit technology and processes, each at 
a single port of entry, during FY 2015.
    DHS currently operates a biographic-based entry and exit recording 
system, Advanced Passenger Information System (APIS). APIS is a widely 
used electronic data interchange system that allows carriers to 
transmit traveler data to CBP. APIS data includes passenger information 
that would be found on the face of a passport, such as full name, 
gender, and country of passport issuance. APIS will note when a visitor 
overstays the terms of their admission into the United States. This 
overstay information would be accessible by a CBP officer upon entry 
inspection which may result in the traveler being denied access into 
the United States. A biometric exit recording capability would be in 
addition to this already functioning system and would provide the 
ability to biometrically verify a foreign national departed the United 
States within or outside their initial terms of admission determined by 
their visa type or the visa-waiver program as applicable.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             Michael Stroud
    Question 1. According to your written testimony, the Departments of 
Commerce and Homeland Security have started to develop a national goal 
for reducing wait times at U.S. ports of entry and improving service 
levels for international arrivals. What specific steps will the 
Department take moving forward to support this effort?
    Answer. DHS and its component agencies, along with representatives 
from the Department of Commerce, the White House, and travel industry 
stakeholders have been working collaboratively to develop a national 
goal to improve customer service levels during the entry process, as 
directed in the President's Memorandum dated May 22, 2014, 
``Establishing a National Goal and Developing Airport Specific Action 
Plans to Enhance the Entry Process for International Travelers to the 
United States.'' We have received robust participation from the private 
sector, working collaboratively with airlines, resort operators, hotel 
operators, airport operators, and travel industry associations, 
including the U.S. Travel Association, Airports Council International-
North America, Airlines for America, International Air Travel 
Association and the Global Business Travel Association. As of the end 
of July, we have hosted stakeholder input sessions in 17 U.S. cities 
and 3 separate national level engagements in Washington, D.C. to work 
on developing the national goal. We will continue our work over the 
next couple of months and will report our results to the President by 
September 19, 2014.
    Question 2. What steps has the Department taken to improve the 
customer service experience across its agency components that interact 
with the traveling public? How will the Department ensure that this is 
a priority for its agency components?
    Answer. DHS and its component agencies Customs and Border 
Protection (CBP) and Transportation Security Administration (TSA) have 
made great strides in recent years in improving customer service levels 
for passengers. One key factor in the improvements has been increased 
cooperation between DHS, its components, and travel industry 
stakeholders, mainly airport authorities and airlines.
    These partnerships have shown dramatic results. At Dallas/Fort 
Worth International Airport (DFW) and Chicago O'Hare International 
Airport (ORD), a combination of measures, such as Automated Passport 
Control (APC) kiosks, Trusted Travel Programs like Global Entry, and 
reimbursable service agreements, reduced international passenger 
arrival wait times by nearly 40 percent on average over 12 months. 
These efforts reduced more than half the percentage of travelers 
waiting over 30 minutes, resulting in a new average wait time through 
border security of 15 minutes.
    ORD has seen passenger growth of 7 percent this year--the second 
fastest growth of any top 10 airport--and has partnered with CBP on 
improved queuing, signage, passenger flow, Global Entry, and 
critically, APC kiosks. The results have been dramatic.
    At DFW, international arrivals have grown 16 percent over the past 
year and 39 percent over the last four years, the most of any top 20 
airport during that stretch. The airport partnered with CBP not only on 
queuing, signage, passenger flow, Global Entry, and APC kiosks, but 
also on a reimbursable agreement for enhanced CBP services. As in 
Chicago, the results have been tremendous.
    Through close partnerships between airports and industry, examples 
like ORD and DFW that are taking the transformative steps to improve 
wait times for international arrivals, can become more common place. 
The initiatives below set forth the key areas for progress this year to 
continue to improve service levels, engage actively with the travel and 
tourism industry, and keep pace with the critical growth in 
international travel.
Automating Traveler Processing through the Expansion of Automated 
        Passport Control Kiosks
    Automated Passport Control (APC) kiosks provide touch screen 
technology to allow passengers to scan their passports and enter their 
customs declaration information. Provided through public-private 
partnerships with airport authorities, these kiosks expedite air 
passenger inspection for U.S. and Canadian citizens at participating 
airports. APC kiosks reduce officer interaction to approximately 30 
seconds (from 55 seconds) while increasing security by allowing 
officers to focus on the interaction with the passenger. In the past 
year, 15 airports have already deployed the technology, with plans for 
another 10 to join by the end of the year. A number of these 15 
airports, including John F. Kennedy International Airport (JFK), 
Chicago O'Hare International Airport (ORD), Dallas/Fort Worth 
International Airport (DFW) and Orlando International Airport (MCO), 
have experienced reductions in wait times of 30 percent or more since 
the APC kiosks have been installed.
Expanding Trusted Traveler and Expedited Clearance Programs
    The Department of Homeland Security (DHS) has developed and is 
expanding popular Trusted Traveler Programs. At the end of 2013, more 
than 2 million people had access to Trusted Traveler Programs, a nearly 
60 percent increase from the previous year, and over 30 million 
passengers received TSA Pre3<SUP>TM </SUP>expedited screening at more 
than 115 domestic airports in partnership with participating U.S. air 
carriers and CBP.

  Trusted Traveler Programs

  Global Entry: More than 2.3 million people have access to CBP Trusted 
    Traveler Programs, including Global Entry, which allows expedited 
    clearance for pre-approved, low-risk air travelers upon arrival in 
    the United States. Global Entry is available at 47 airports and the 
    kiosks have been used more than 8 million times. U.S. citizens, 
    U.S. lawful permanent residents, and nationals of seven other 
    countries are eligible for Global Entry. In Fiscal Year 2013, 
    Global Entry and NEXUS air kiosks usage increased 34 percent over 
    Fiscal Year 2012 (3.3 million vs. 2.5 million uses).

  Expedited Screening Programs

  TSA Pre3<SUP>TM</SUP>: Since the inception of TSA 
    Pre3<SUP>TM </SUP>on October 4, 2011, over 200 million passengers 
    have received some form of expedited screening at more than 115 
    participating domestic U.S. airports in partnership with 
    participating U.S. air carriers and CBP.

  Currently, there are 10 U.S. airlines participating in TSA 
    Pre3<SUP>TM</SUP>: Alaska Airlines, American Airlines, Delta Air 
    Lines, Hawaiian Airlines, JetBlue Airways, Southwest Airlines, Sun 
    Country Airlines, United Airlines, U.S. Airways, and Virgin 
    America. On April 29, 2014, Air Canada became the first foreign-
    owned air carrier participating in TSA Pre3<SUP>TM</SUP>. TSA is 
    working with a number of other foreign-owned airlines to expand 
    international air carrier participation. In addition, the TSA 
    Pre3<SUP>TM </SUP>application program provides travelers with an 
    additional method for enrolling in a Department of Homeland 
    Security (DHS) trusted traveler program, even for individuals who 
    do not have a passport. To date, there have been more than 397,000 
    enrollments in the TSA Pre3<SUP>TM </SUP>application program and 
    there are more than 296 enrollment centers across the country where 
    interested travelers may apply. Through expansion to more airlines 
    participating in TSA Pre3<SUP>TM </SUP>and enrollment opportunity, 
    TSA increases passenger exposure and availability to the program 
    and, as a result, greater opportunity for providing customer 
    service.

  In addition, TSA has maintained ongoing outreach to customers through 
    CBP and participating airlines. TSA has expanded outreach and 
    communications more broadly to include:

    <bullet> Dedicated TSA Pre3<SUP>TM </SUP>web pages on the Internet 
            sites for all 11 participating airlines.

    <bullet> TSA Pre3<SUP>TM</SUP>-related articles in several in-
            flight magazines and employee newsletters.

    <bullet> Direct airline messaging about TSA Pre3<SUP>TM </SUP>to 
            passengers via e-mail, signs posted at ticket counters and 
            in airline lounges, and pop-up messages on check-in kiosks.

    <bullet> TSA Pre3<SUP>TM</SUP>-specific signage provided by 
            airports to include directional signs as well as `call to 
            action' banners regarding the TSA 
            Pre3<SUP>TM </SUP>enrollment process.

    <bullet> Co-marketing agreements with American Express Card 
            Services and Sabre Travel Network to promote TSA 
            Pre3<SUP>TM </SUP>enrollment direct to customers and 
            through travel managers.

    <bullet> TSA Pre3<SUP>TM </SUP>information and assistance for 
            travelers through TSA Contact Center representatives.
Public-Private Partnerships
    In FY 2013 and FY 2014, the Administration has requested, and 
Congress has granted, new legal authorities for CBP to enter into 
partnerships with state, local, and private sector entities so that 
increased CBP inspectional services could be provided on a reimbursable 
basis at U.S. ports of entry upon request. In FY 2013, the CBP 
Reimbursable Services Program was established under the authorities 
provided in Section 560 of the Consolidated and Further Continuing 
Appropriations Act, 2013, which authorized the Commissioner to enter 
into a maximum of five reimbursable services agreements (RSAs) for CBP 
enhanced inspectional services by December 31, 2013. To determine which 
locations would be selected for agreements, CBP reviewed applications 
submitted by private sector and government entities and selected the 
following stakeholders to participate in the program:

  <bullet> Dallas/Fort Worth International Airport;

  <bullet> The City of El Paso, Texas;

  <bullet> South Texas Assets Consortium;

  <bullet> Houston Airport System; and

  <bullet> Miami-Dade County.

    Early indicators demonstrate that these partnerships can have a 
meaningful impact on service levels at the locations where the 
stakeholders have requested increased services. Within the first six 
months of this program, CBP provided an additional 7,000 CBP officer 
assignments and opened primary lanes and booths for an additional 
18,000 hours at the request of our reimbursable services partners.
    In January 2014, CBP received authority under Section 559 of the 
Consolidated Appropriations Act, 2014, which more broadly authorized a 
five-year pilot program to permit CBP to enter into partnerships with 
private sector and government entities for certain reimbursable 
services. CBP received 25 reimbursable services applications in 2014, 
of which 16 were tentatively selected for new partnerships. These 
include (by environment):

    Air:

  <bullet> Los Angeles World Airports

  <bullet> San Francisco International Airport

  <bullet> Greater Orlando Aviation Authority

  <bullet> McCarran Airport

  <bullet> Denver International Airport

    Sea:

  <bullet> Penn Terminals, Inc.

  <bullet> Independent Container Line, Ltd.

  <bullet> Network Shipping Ltd.

  <bullet> Greenwich Terminals LLC

  <bullet> Gloucester Terminals LLC

  <bullet> Turbana Corporation

  <bullet> Interoceanica Agency, Inc.

  <bullet> Diamond State Port Corporation (Port of Wilmington, 
        Delaware)

  <bullet> Port of Houston Authority

  <bullet> Broward County (Port Everglades)

    Land:

  <bullet> South Texas Assets Consortium)
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                             John P. Wagner
    Question 1. Industry stakeholders have said that the Model Ports of 
Entry program has not been implemented consistently across all 20 
airports. Please explain what steps U.S. Customs and Border Protection 
has taken to ensure that the program has been fully implemented.
    Answer. There have been tremendous advances since the Model Ports 
of Entry pilot program was launched in 2006 at Houston and Dulles 
airports. In 2008, U.S. Customs and Border Protection (CBP) used $40 
million made available by Congress to expand the Model Ports of Entry. 
Using these funds, CBP expanded the program to the 20 U.S international 
airports with the highest number of foreign visitor arrivals (annually 
as of August 2007), developed new directional signage, installed audio 
and video technology to display arrival information and welcome 
messages, developed airport primary wait time reporting, implemented a 
national survey, and implemented the Passenger Service Manager program 
to the top airports.
    In addition to the improvements that were made as a result of the 
Model Ports of Entry program, several best practices were implemented 
that are still prevalent across the airports today. For example, all 
the CBP ports continue to have regular and reoccurring meetings with 
airport stakeholders to examine the process and implement programs such 
as ``One-Stop'' and ``Express Connect.'' One-Stop and Express Connect 
reduce wait time by removing a segment of the traveler population from 
the queue, which results in a lower number of travelers in line, 
reducing the overall wait time and facilitating the entry process for 
admissible travelers.

    Question 1a. What has U.S. Customs and Border Protection done to 
continue to improve the program and make the traveler entry experience 
more welcoming since it began in 2006?
    Answer. International air travel to the United States has grown by 
4 percent per year since 2009, rising to a record level of 94 million 
international arrivals in 2013. In Fiscal Year 2014 to date, 
international air travel has grown at a rate of almost 6 percent, and 
aviation industry associations, carriers, and aircraft manufacturers 
are predicting 5 percent growth per year through 2020. These travelers 
are critical to the U.S. economy, with each visitor spending an average 
of $4,500 per visit at American hotels, shops, restaurants, and other 
businesses while in the country thereby contributing to economic 
growth.
    The President launched a National Travel and Tourism Strategy in 
2012 and set an ambitious goal of attracting and welcoming 100 million 
international visitors annually by the end of 2021. Two years later, we 
are on track to meet this goal, in part due to the actions taken to 
expand our ability to attract and welcome visitors by improving the 
international arrivals experience, while maintaining the highest 
security standards. As part of this strategy, CBP has pursued an 
aggressive plan over the last several years to optimize the 
international arrivals process and speed travelers to their 
destinations in the United States. CBP is revolutionizing operational 
processes through automation, innovation, and Trusted Traveler 
Programs; employing a rigorous approach to identify the staffing needed 
to effectively carry out CBP's increasingly complex mission at the 
Nation's ports of entry; and exploring public-private partnerships to 
support growing passenger volume, expanded services, and facility 
growth. CBP has also been actively engaged with travel industry 
stakeholders on several key initiatives, including Automated Passport 
Control (APC) kiosks, Trusted Traveler Programs like Global Entry, 
Mobile Passport Control, and reimbursable service agreements.
    In addition, CBP is using the initiatives below to continue to 
improve service levels and keep pace with the critical growth in 
international travel.
Air Egress Transformation
    CBP has been engaged in business transformation efforts aimed at 
streamlining and establishing a safer and more efficient arrival 
process and enabling officers to focus on their primary law enforcement 
mission rather than administrative tasks. As part of the business 
transformation efforts, CBP is exploring options to modify the current 
egress process.
Traveler Satisfaction Surveys
    DHS has developed and deployed a traveler satisfaction survey to 
benchmark passenger satisfaction and CBP professionalism at the top 20 
airports. Customer service surveys, with questions developed in 
conjunction with the travel industry, were conducted by a third party 
in November 2011 and August 2012. The results of the two surveys were 
very instructive with regard to CBP performance. Contrary to the media 
narrative, the results indicated the public's broad satisfaction with 
the professionalism of CBP personnel and overall wait times. For CBP, 
the results of those surveys have also been instrumental in continuing 
efforts to improve the passenger experience and provide a welcoming 
environment.
Passenger Service Manager
    The CBP Passenger Service Manager (PSM) plays a crucial role in 
responding to traveler complaints or concerns; oversees issues related 
to travelers requiring special processing; provides recommendations for 
improvement of traveler processing and professionalism; provides 
training to managers, supervisors, and officers on customer service and 
professionalism issues; and promotes public awareness of the CBP 
mission through distribution of public information bulletins, 
brochures, and comment cards. The PSM program is being implemented at 
over 300 ports of entry.

    Question 2. As U.S. Customs and Border Protection works to expand 
Global Entry, there may be opportunities to explore innovative methods 
for enrolling new, eligible U.S. citizens. To what extent has U.S. 
Customs and Border Protection and the U.S. Department of State 
considered the feasibility of coordinating the Global Entry application 
process with the U.S. passport renewal process?
    Answer. U.S. Customs and Border Protection (CBP) is committed to 
expanding the pool of Trusted Traveler program applicants. More than 
2.3 million people have access to CBP's Trusted Traveler Programs, 
including Global Entry, which allows expedited clearance for pre-
approved, low-risk air travelers upon arrival in the United States. CBP 
has worked with the Department of State (DOS) to include a pamphlet 
that details the benefits of Global Entry and TSA 
Pre3<SUP>TM </SUP>with each new passport issued. The pamphlet provides 
additional information to individuals who may be interested in applying 
for Global Entry. Given differences in eligibility criteria, a U.S. 
citizen may be eligible for a passport but not necessarily eligible to 
be a member of a Trusted Traveler Program.

    Question 3. In your written testimony, U.S. Customs and Border 
Protection and the U.S. Department of Homeland Security acknowledge the 
benefits of establishing preclearance to reduce wait times at ports of 
entry. What steps is U.S. Customs and Border Protection taking to add 
preclearance facilities at additional overseas airports?
    Answer. Beginning in October 2014, U.S. Customs and Border 
Protection (CBP) intends to partner with interested stakeholders to 
expand preclearance operations to new locations. As part of this 
expansion plan, CBP developed a public document titled ``Preclearance 
Expansion Plan--Fiscal Year 2015 Guidance for Prospective Applicants'' 
that outlines the details on the process and requirements for 
applicants who are interested. In coordination with CBP, airport 
authorities will have the opportunity to design a preclearance model 
that accommodates their airport's unique operating environment and 
service goals, while satisfying the requirements of the preclearance 
process. CBP will evaluate and prioritize an initial set of potential 
preclearance locations and, following the necessary approvals to 
negotiate, may begin formal preclearance negotiations in early 2015.

    Question 3a. What is the status of U.S. Customs and Border 
Protection expanding preclearance to Japan?
    Answer. On April 22, 2014, U.S. Customs and Border Protection (CBP) 
met with Minister and Head of Chancery Hideaki Mizukoshi and 
accompanying dignitaries at the Embassy of Japan in Washington, D.C., 
to provide an overview of preclearance and CBP's requirements for 
expansion of preclearance. The Minister expressed interest in the 
concept of preclearance, but noted facility, law enforcement, and cost 
concerns. In October 2014, CBP executive leadership will meet with host 
government officials and airport stakeholders in Japan to outline the 
preclearance expansion plan and address any potential concerns or 
questions.

                                  [all]

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.



      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
